<html>
<title> - SCHOOL CRIME PREVENTION PROGRAMS</title>
<body><pre>[Senate Hearing 106-1010]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 106-1010

                    SCHOOL CRIME PREVENTION PROGRAMS

=======================================================================

                                HEARING

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 15, 2000

                               __________

                             NEW CASTLE, DE

                               __________

                          Serial No. J-106-28

                               __________

         Printed for the use of the Committee on the Judiciary

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
73-138                     WASHINGTON : 2001


                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
STROM THURMOND, South Carolina       PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     HERBERT KOHL, Wisconsin
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              RUSSELL D. FEINGOLD, Wisconsin
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               CHARLES E. SCHUMER, New York
BOB SMITH, New Hampshire
             Manus Cooney, Chief Counsel and Staff Director
                 Bruce A. Cohen, Minority Chief Counsel


                            C O N T E N T S

                              ----------                              

                     STATEMENT OF COMMITTEE MEMBER

                                                                   Page

Biden, Hon. Joseph R., Jr., a U.S. Senator from the State of 
  Delaware.......................................................     1

                               WITNESSES

Lleiman, Bryan, Principal, Miami Springs High School, on behalf 
  of the Youth Crime Watch of America, prepared statement........    27
Giles, Jeff, Corporal, Delaware State Police, and School Resource 
  Officer, William Penn High School..............................    35
Riley, Pam, Executive Director, Center for the Prevention of 
  School Violence, prepared statement............................     6
Yeakey, Jon, Coordinator, National Resource Center for Safe 
  Schools, prepared statment and attachments.....................    16

 
                    SCHOOL CRIME PREVENTION PROGRAMS

                              ----------                              


                          MONDAY, MAY 15, 2000

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    New Castle, DE.
    The committee met, pursuant to notice, at 9:58 a.m., in 
Wallace Wallin Building, Basin Road, New Castle, DE, Hon. 
Joseph Biden, presiding.

OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR., A U.S. SENATOR 
                   FROM THE STATE OF DELAWARE

    Senator Biden. Good morning, everyone. I want my friends in 
the Delaware legislature, particularly the Senator, to observe 
this may be the first time I have ever started anything early. 
Check your watch. It is three minutes early.
    Gentlemen and ladies and our witnesses, I have the very 
undeserved reputation of being late occasionally. Bruce 
Reynolds, the State Representative from here, and also, he is a 
good guy, he is from the wrong party but he is a good guy and 
he is a great coach and a good friend, I want him to mark that 
the next banquet we attend, he will acknowledge I started 
something early.
    I want to begin by thanking Dr. Meney, the Assistant 
Superintendent of the Colonial School District, for 
accompanying us here today, and State Representative Mike 
Mulrooney, who is a good buddy of mine, a guy that when I need 
something done, I ask for help. I already mentioned Bruce 
Reynolds, who is an old friend, a William Penn High School 
teacher and truly one of the great coaches in the State of 
Delaware, I think one of the greatest coaches as long as I have 
been around. I also want to thank Monte Gerheardt of the 
Colonial School District; Kathleen Silbur, Colonial School 
District Board President; Rich Farmer, Assistant Principal of 
William Penn High School; Dr. Dave Robinson, Superintendent of 
the Caesar Rodney School District--Doctor, thank you for coming 
up--and Dr. Dave Campbell, Superintendent of the Colonial 
School District.
    I want the real Senator in the district--Senator, would you 
stand up, sir? I know the real Senator is here. Thank you for 
allowing me to be in your district, and I am flattered that the 
three of you would come. This is a bit of a busman's holiday 
for a member of the legislature to come to a hearing that 
another member of the legislature is putting on, but it is a 
testament to the kind of--and speaking of that, the Speaker of 
the State House of Representatives is here, Terry Spence. 
Terry, how are you? Thank you very much for being here. I am 
flattered you would take the time to come.
    For those of you from out of State, I should tell you that 
this is unusual, but this is sort of typical of Delaware. When 
it comes to problems and/or solutions, one of the great 
advantages of this small State is that we can literally get 
everybody in one room and there is very, very, very little 
partisanship in this State. We get along well.
    I also want to thank members of the Delaware State Police 
for being here. It is not an accident to point out that they 
are the best State police organization in America, but then 
again, I am mildly prejudiced. Thanks for being here.
    I also want to thank our distinguished panel for making the 
extra effort to be here today, and I am going to introduce them 
shortly, but I have a brief opening statement.
    First, let me say right up front that many of you might 
think I have acquired my knowledge or the lack of it on crime 
prevention, particularly as it relates to schools, from my 27 
years of doing this on the Judiciary Committee, but I have not 
acquired it there. I acquired it from my wife, who has been a 
school teacher in the public school system for 17 years and now 
teaches at the community college.
    My wife is, like some of the teachers in this room--I am 
very prejudiced. She is always embarrassed when I mention it, 
not embarrassed, she gets angry when I use her to make any kind 
of point, but I really have observed over the last 22 years now 
that she has been teaching, 23 years--well, let me put it this 
way. My mom has an expression, ``If you want to know me, come 
live with me.''
    Well, if you live with a teacher who takes her job very, 
very seriously, you get a real insight into the problems that 
teachers and administrators face and the opportunities. So 
daily, I get input on the optimal environment in which students 
should be learning and classroom sizes, what to do about the 
extremely disruptive students, and her bewilderment as to why 
those of us who hold public office are not smarter. So I called 
this hearing today to discuss what is being done across the 
country to make schools safer places for our children.
    Every State in this country has a school crime prevention 
program in place, with Delaware leading the pack with some very 
innovative and model initiatives. But today, I wanted us to be 
able to hear how important it is to get responsible adults into 
the lives of our children and give kids positive alternatives 
to crime and violence, because kids want to be kids and we need 
to give them an opportunity to be kids.
    Our goal today, it seems to me, should be to ensure that 
everyone who is concerned about violence in our schools knows 
about all that is being done and all that they can do to help. 
The fact is that a majority of schools in the United States of 
America, the vast majority are very safe places. According to 
data compiled by the Children's Law Center, there was a 40 
percent decline in school-associated violent deaths between the 
years 1997 and 1998 and 1998 and the end of the school year 
1999. But the number of people who were scared of school 
violence, who thought there was much more than there is, rose 
50 percent during this same time. So we have this inverse 
proportion. We had the crime actually going down, not only in 
Delaware but throughout the nation, but the concern about crime 
escalating.
    I do not want anyone in the press to misunderstand the 
purpose of the hearing. As they accurately reported in today's 
paper and on the radio, this is not a, quote, ``Columbine-type 
hearing.'' I was yesterday at the Million Mom March and met 
with the President on the White House lawn. I think there is 
great concern about those aspects that brought about the 
circumstances which allowed for Columbine to happen. I happen 
to be one who thinks that guns are much too available to our 
children, that there are rational things we can do.
    I am the one who drafted the juvenile justice bill, along 
with Senator Hatch, that has those three simple provisions in 
it that we cannot even get the House of Representatives to meet 
with us on--trigger locks, not allowing clips that have 17 or 
more bullets in a clip to beable to be manufactured and sold in 
the United States, and this gun loophole. Ask the county, city, or 
State police here. You go to a gun show and you can buy whatever you 
want. If the gun show is held on a Friday night, if you have a 72-hour 
check, it is not until Monday and if you only have a 24-hour check, 
they can buy the gun and be gone. So they are simple things.
    But that is not what this is about. This is more about how 
to take what already good is happening and give everyone, and I 
will be handing out a catalogue, or actually we should have 
given them to you already if you have not seen them, a 
``Catalogue for Safe Schools: A Resource Guide to School 
Violence Prevention.'' A young man on my staff, Eli, put this 
together. This is not original to us. What we do, what our 
primary function is, is to go out and catalog from around the 
country many of the programs that people we are about to hear 
from have gone out and catalogued and/or innovated and so they 
are made available. We have done this in the Violence Against 
Women Act. We did this in the Biden crime law. Our local 
police, our local courts, our local hospitals have taken 
advantage of some of the innovative programs other States have 
initiated, and that is part of the purpose today.
    But according to the same study I cited earlier, there is a 
one in two million chance--one in two million--that a teenage 
child would die in school in the year 1998-1999. But again, 71 
percent of the people in America said that a school shooting 
was likely. Seventy-one percent said a school shooting was 
likely to happen in their community school.
    Juvenile homicide arrests decreased by 56 percent from 1993 
to 1998, in large part because of the uniforms you see out 
here, but 62 percent of the people polled in America believe 
that juvenile crime is on the rise when, in fact, there has 
been a precipitous decline, as in all other violent crime over 
the last seven years. We have a serious public perception 
problem.
    Yet, while violence is on the decline, there is still much 
too much of it. I was asked recently by one of the national 
press people, was I proud that the Biden crime law was credited 
for reducing crime--that is not the only reason crime is down, 
by any stretch of the imagination, but I think it is a major 
reason, putting another 100,000 cops in the street, building 
more prisons and providing $9 million in prevention money, not 
the only reason, though--and I was asked if I was proud. I 
said, well, I am proud. It has been down six to seven percent 
every year, but it is not down to the levels it was in 1955 or 
1950. That is what I am shooting for. It is much better, and I 
am sure everybody in the audience is looking for that, as well.
    So we cannot become complacent. We have to keep up the 
excellent work that has started here in Delaware and around the 
country. So what is working?
    Today, as I said, I am releasing this ``Catalogue for Safe 
Schools'' for all the school superintendents, teachers, and 
parents here today, and by the way, I am aware of that old joke 
and it happens to be true here. Many of you have forgotten more 
about school violence and how to deal with it than I am likely 
to learn. You are in it every single day. You deal with it 
every single day. So I do not want to come across as that old 
joke about the definition of an expert, an expert is anyone 
from out of town with a briefcase. Well, I am from town and I 
do not have a briefcase, but I am trying to be helpful.
    For all the school superintendents and teachers, I hope 
they will find it a valuable resource guide. It is a catalogue 
of some of the best sources of technical assistance, program 
planning, funding information, and up-to-date research on 
school violence prevention, and as many of you know, I have 
always been a strong advocate of prevention programs. That is 
not to say that I think we should be soft on those who commit 
crimes, but I think we are expending our money much more wisely 
if we spent more of it on prevention.
    Those of you who know me, and there are a number of 
Delawareans here today who do and I have worked with, know that 
I believe that there comes a time when punishment is the only 
answer. But when we are talking about our kids, we can do so 
much more than we have been doing. If we can just catch the 
behavior before it spirals out of control, then we will have an 
opportunity to really help our kids, and the best way to keep 
our kids out of trouble is to offer them positive alternatives, 
such as after-school programs. Kids, in my experience, want 
excuses.
    I go back, if you take a look at the crowd here today, 
whether it is Mike or Bruce or any of us, we grew up. We were 
pretty good athletes, we were pretty tough kids, and we looked 
for excuses. You would walk out in the street and a kid would 
say to you, come on, let us do such and such, whether it was 
drinking, drugs, or fighting, and you would say, yeah, I would 
love to do that, man, but I have got practice, or, man, yeah, I 
do that all the time, but you know, I have got to go here. Kids 
need excuses. They need excuses.
    So I would like to see us give them more excuses to do the 
right thing. They need to be able to say, I would like to have 
that beer, I would like to smoke that joint, but I have got to 
go to the Boys' Club or I have got basketball practice or I am 
committed to do such and such.
    But the best chance that we have to solve this problem is 
through the students themselves. We have to expect more from 
our students. We cannot pretend to be the ones to know what 
their problems are if they already know them. My mother has an 
expression. She says, children tend to become that which you 
expect of them. I happen to think she is right. They are the 
ones in the locker room and the library. They are the ones that 
know the kids who are in trouble. They are the ones who know 
which kids are depressed and which kids are doing drugs and 
they are the ones who see the bullying and they are the ones 
who know better than us how to stop it if we can help them.
    On this issue, one high school junior recently said, 
``Everyone knows that violence in schools is a serious problem 
that is facing schools all across the country. Some schools are 
even trying to take action to prevent the violence,'' continued 
the quote. ``But what happens when these schools do so without 
the help of the students? From experience, I can tell you that 
things will get worse. It is important to take action to 
prevent school violence. But when doing so, take into 
consideration the reaction of students. I do not think enough 
people realize that students want to help and that they want to 
help. We are the ones who are going to ultimately bring 
violence to an end.''
    So what can kids do, or young students do? They needto be 
taught to listen to their friends who are sharing their problems and 
support them while receiving help. They can be the role models for 
other kids by learning tolerance and finding constructive alternatives 
to anger, and they can and should report threats of violence and drug 
use. Kids can serve as mentors to younger people.
    This is the crux of what brings us here today. We have to 
realize that the expertise of our children, without their 
participation, I do not think we will ever solve the problem, 
so how do we do this?
    Well, the Center for Prevention of School Violence is doing 
the right thing with their student courts, peer mediation, and 
student-initiated programs. These programs empower students and 
give them control over issues that are often effective. These 
programs give them an opportunity to be responsible, 
contributing members of the school and society.
    Our panels today will bring some of these programs to light 
with their testimony and their answers. Corporal Jeff Giles 
will talk about one of the most successful common sense 
solutions, community policing for schools. Corporal Giles is 
one of the 16 school resource officers, most of whom have been 
hired through the Biden crime law. In fact, one of the reasons 
that I wanted to hold this hearing here at William Penn School 
was that it is the first Delaware high school to receive such a 
resource officer. School resource officers and some outstanding 
new programs funded and initiated by the Delaware General 
Assembly, Governor Carper, and the State Education Department 
are producing significant and positive results.
    A recent study showed that crime in Delaware schools is 
down, as well. Bryan Kleiman will tell us about Youth Crime 
Watch of America. You have all heard of Neighborhood Crime 
Watch. Brian is out to help students set up local crime watches 
to prevent illegal drug use, gang violence, and thefts.
    Pam Riley, the Director of the Center for the Prevention of 
School Violence, which serves like a library of information on 
preventing school violence, also is here to testify.
    And Jon Yeakey is a coordinator for the National Resource 
Center for Safe Schools, which works with parents and teachers. 
It helps students with anger management, mentoring, and peer 
counseling.
    To continue to make our schools safer, we know one thing 
for sure. There is no silver bullet. It takes superintendents, 
principals, teachers, parents, school board members, elected 
officials, nonprofit groups such as Boys' Clubs and Girls' 
Clubs and the YMCA and YWCA's all working hand in hand.
    But Congress can also help with legislation like the 
amendment we passed last week, which I wholeheartedly 
supported. I first learned about the problem this amendment 
dealt with again from my wife, Jill. School officials and even 
teachers are becoming increasingly concerned that they will be 
held liable for actions they take concerning school discipline, 
and that is why last week we supported an amendment to make 
teachers immune from frivolous lawsuits after intervening in a 
fight or removing a disruptive student from a classroom unless 
they have violated the student's civil rights. We ask an awful 
lot of teachers these days. Their time is much too valuable and 
they should not have to worry about frivolous lawsuits.
    There is a great deal being done around the country and 
still more that can be done to address this problem, and that 
is why we are here today. This is a problem that we can tackle, 
and with the help of those most affected, we can fix it. I am 
looking forward to hearing from all of our witnesses today and 
sharing ideas and begin talking positively about what is done.
    Again, I wish we had time, but I would invite any of my 
colleagues in the legislature here today, as the witnesses 
finish, if they would like to pull a chair up here and ask 
questions with me and participate in this hearing, which I 
realize is unusual--I do not want to embarrass them, but if 
they may want to do that, I would be delighted to have them 
take part.
    Why do we not now begin the testimony, and I sincerely mean 
that. If any of our colleagues in the legislature wish to, when 
they finish testifying, come on up and sit and ask questions, I 
am sure they would not mind. Again, you are the ones here. You 
are the ones dealing with it every day. I get on the train and 
go to Washington and I read about it or hear about it. You are 
here every single day.
    Again, thank you all for being here, and Ms. Riley, why do 
we not start with your testimony and work our way across. 
Thanks again for being here.

  STATEMENT OF PAM RILEY, EXECUTIVE DIRECTOR, CENTER FOR THE 
                 PREVENTION OF SCHOOL VIOLENCE

    Ms. Riley. Thank you very much, Senator Biden. It is a real 
opportunity to be here and be able to talk with you, especially 
about the issue of school violence.
    The Center for the Prevention of School Violence has its 
eyes focused on a vision, and this is a vision that I think 
many in the country share and that vision is that every student 
should be able to attend a school that is safe and secure, free 
of fear and conducive to learning. I think the last part of 
that is very important, conducive to learning. We do not need 
to turn our schools into prisons, but we do need to provide 
that level of safety and security where teachers can teach and 
students can learn.
    And you mentioned it in your opening remarks. We have safe 
schools. Maybe we should be looking at how to make our schools 
safer, and I think many of the schools in the country do not 
experience the crime that--the perception that schools are 
unsafe and that there is rampant crime in the schools. The 
recent reports show us that, in fact, school violence has 
leveled off, and in some cases and in many categories has 
actually gone down.
    I think what we have to do here is look at more than just 
crime when we are talking about school violence. What is school 
violence? Do we all have a different idea as weare talking 
about that? Are we talking about murder, suicide, rape, or are we 
talking about incidents of disruption and disorder in the classroom?
    I think we can look at school violence on a continuum and 
we have to address the things early on in that continuum, at 
one end, such as pushing and shoving and bullying and trash 
talk. These are incidents that are occurring each and every day 
in classrooms. So it might be that, in fact, school crime is 
down, but, in fact, the disruption and disorder in the 
classrooms are occurring, and we do have to address those 
issues. If we let bullying and trash talk, intimidation, he 
said/she said type of incidents go on, these can escalate into 
major confrontations.
    So how much school violence is occurring? The most recent 
reports show us that one out of ten schools report a serious 
crime to law enforcement, but when we ask students, when we ask 
teachers, when we ask parents, they are wanting us to focus in 
on discipline and disruption issues. There are trends that the 
Center for the Prevention of School Violence has identified 
occurring now across the country.
    No. 1, that there is certainly more attention being placed 
on this particular topic. We merely have to mention the towns 
that are now so familiar to us--Paducah, Jonesboro, Littleton--
and the ``it cannot happen here'' mentality just can no longer 
be accepted. Schools are realizing that they must plan for 
safety, that schools are not immune from the guns, drugs, and 
violence that we see in our community, and in order to have 
safer environments for learning, we must plan for safety.
    The Center for the Prevention of School Violence is working 
with school districts across the country with their safe school 
plans. These plans should have three parts. Number one, we need 
to prevent incidents from happening in the first place, so 
prevention needs to be a part of safe school planning.
    No. 2, we need to intervene as events are occurring. If we 
recognize early warning signs, for instance, there needs to be 
procedures in place in the school and in the community to 
intervene and to bring young people back into the education 
mainstream. And if we do not intervene, then there is the 
chance that an incident could escalate into a major 
confrontation.
    So prevention, intervention, and then No. 3 is response. 
School districts need to have in their plan a way to respond if 
there is a crisis that occurs, to respond while it is happening 
and to respond after it occurs. I think we have seen the 
aftermath of the school shootings have been something that has 
not stopped, that these school districts and schools that do 
experience the media high-profile event continue to have the 
problem of dealing with it. So safe school planning, 
prevention, intervention, and crisis response.
    What is working as far as safe school planning? Assessing 
needs. Too often, we see around the country that school 
districts put in a safe school plan and put in strategies 
without assessing what their needs are. So it is important for 
school districts to do an assessment, what is going on that is 
working in our school district, in our community, what are our 
needs, what are our challenges.
    And we look at assessing needs, we call it the four ``S''s 
of safe school planning assessment. Number one, that you do 
site assessments. You walk across the grounds, you walk in the 
school building, and you try to determine where the trouble 
spots are. The school resource officer can be a terrific 
resource for----
    Senator Biden. Give me an example of what you mean. How do 
you do a site assessment? What would be an indication of 
trouble in walking and doing a site assessment? Give me an 
example of something that would be a red flag.
    Ms. Riley. In the locker areas, for instance, looking for 
possible conflict situations where lockers are close in and 
students are having to get to their locker without bothering 
someone else. Lockers that are stacked are not good, and, in 
fact, many school districts are actually taking out lockers 
because of the difficulty that they are seeing with that. 
Asking students what they--where in the school----
    Senator Biden. Does it relate to the physical plant?
    Ms. Riley. Yes, sir.
    Senator Biden. The site assessment does, OK.
    Ms. Riley. The physical environment, but that site 
assessment can also include the school climate, because we have 
to be ready, attacks from within or attacks from without. So we 
want to look at fencing and lighting, for instance. How do you 
harden the target of your school to make it less likely that an 
incident will occur?
    And that is one thing that I wanted to mention. Having been 
a high school principal myself, there are no guarantees that 
another incident will not occur, but there are certainly things 
that schools and communities can do to decrease the potential 
for violence occurring, and one of those things on the list is 
site assessment.
    Looking at statistics. Look at your numbers. Look at where 
incidents happen, when they happen, who they happen to, and 
that will give you an idea of what is going on on your campus.
    Next----
    Senator Biden. Can I ask you another question about that? 
Sorry to interrupt.
    Ms. Riley. That is OK.
    Senator Biden. I want to make sure I understand, and maybe 
the audience understands all this, but I am not sure. When you 
say statistics, is your experience that most schools keep good 
statistics? The reason I say that is that years ago, 12 years 
ago, I invited every school principal in Delaware to another 
hearing like this on guns in school and not a single principal 
would come. Not a single principal wanted to be asked the 
question whether or not there are guns in school, even though I 
knew of four incidents personally. When you are married to a 
teacher, you hang with teachers, and I knew of four incidents, 
and I mean it sincerely, four incidents in four high schools 
and not one principal was willing to come, not one 
superintendent was willing to come because none of them of them 
wanted to admit that their school had a gun in it or had a gun 
brought to school.
    So my experience, and that is 12 years old and maybe things 
have changed a lot, but my experience was schools are not very 
honest, nor are universities. I am the guy who did the binge 
drinking stuff and the rape statistics. They do not want to 
keep them. If they keep them, they are there and they make them 
look bad. Are they honest? Are there school statistics?
    Ms. Riley. I think it is getting better, but certainlythere 
are problems. A principal who turns in an incident then risks someone 
saying, well, you run an unsafe school here.
    Senator Biden. You are a lousy principal.
    Ms. Riley. But if you look at the other side of that now, 
if you have a situation that has been covered up and something 
does occur, then it is much, much worse. So I think principals 
are understanding that you cannot come up with solutions unless 
you know what your problems are.
    Senator Biden. OK.
    Ms. Riley. So statistics, but just for the point that you 
brought up, also surveys. Survey parents. Survey students. 
Survey staff members and say, is this a safe school?
    Senator Biden. How do you do that?
    Ms. Riley. With survey instruments.
    Senator Biden. So you actually go out and essentially do a 
poll?
    Ms. Riley. That is correct. Ask students, do you feel safe 
at this school, and they will tell you. Are there places at the 
school you are afraid to go, and that might be the reason why 
you need to have some security equipment. So the survey is a 
check to the statistics.
    There are incidents that principals have turned in, they 
have come to the superintendent and they turn in their yearly 
report and there is a smile on their face. ``I had no fights 
this year.'' But you survey the students and the students say, 
``Well, I am afraid to go to the bathroom because I get beat 
up.''
    Senator Biden. That is the point I am making. Now, again, I 
am not speaking about any--I mean this sincerely--any 
particular principal or assistant. It seems to me there is sort 
of a genre in all States. I have been doing this not just here. 
That is why I am wondering how you got the statistics, but the 
survey seems pretty impressive. It is an impressive notion to 
figure what the kids really worry about.
    Ms. Riley. But the number of States now that are requiring 
school districts to turn in crime reporting is growing. There 
were 12 States a few years ago and now a few more have been 
added. So that is one recommendation that I would make. You 
cannot find solutions until you know what the problems are.
    And then the final ``S'', we have site assessment, 
statistics, surveys, the final ``S'' is students, connecting 
students to schools, involving students in problem solving. If 
you have a problem at that school, involve kids in helping you 
with solutions. They are terrific at working through problems 
and can be a very important part of what is happening with, 
say, school planning.
    So assess your problems. Number two, then plan, and when 
you plan, you want to involve programs that are promising 
programs for preventing school violence. Our center has 
developed a pyramid of safe school programs that are research-
based for preventing school violence, and this pyramid has 
strategies that involve the entire community in safe school 
planning.
    School resource officers are at the foundation of this 
pyramid, because we believe that school law enforcement 
partnerships are a very important part of making sure that your 
school is safe. Teachers and administrators were trained to 
teach and they are educators. Unfortunately now, we have crime 
in schools and we are trying to prevent it from entering 
schools, and school resource officers, law enforcement, they 
are trained to deal with crime. Having them in the school 
environment to deal with crime allows our teachers and 
administrators to get back to the business of teaching and 
learning and focusing on that.
    Other programs that we see that are working across the 
country, quickly and I will finish up here, law-related 
education, good citizenship and character education, helping 
young people to understand not only their rights but their 
responsibilities. Conflict management skills and peer 
mediation--everyone needs to know how to handle conflict more 
effectively, and peer mediation is one of those areas in 
schools that is working to help young people.
    SAVE is another program on our pyramid, Students Against 
Violence Everywhere. SAVE now is in 28 States. We have young 
people all across this country that are saying we want our 
hallways back, our restrooms back, our classrooms back for what 
they were meant for, and SAVE is an organization to allow young 
people to be a part of safe school planning efforts.
    Teen court and student court, again, peer-focused programs. 
And then at the top of our pyramid, physical design and 
technology, being sure that in the school setting we do provide 
for the security needs.
    We can make the place of school safe, but what about the 
people within that place? People and relationships are 
important, and as we look up our pyramid, we can see here 
physical environment strategies to make schools safer and also 
strategies to help people to better deal with relationships, 
student to student, student to staff member, and how about this 
one, staff member to staff member because we are role models 
for kids, and that will help us to get back to the purpose of 
schooling, which is academic excellence, not drug deals, not 
bringing guns to school, but academic excellence.
    So our hope is through these ideas with safe school 
planning, focusing on involving parents, involving students, 
involving the entire community in safe school planning, that 
every student will be able to attend a school that is safe and 
secure, free of fear, and conducive to learning.
    Senator Biden. Thank you, Ms. Riley.
    [The prepared statement of Ms. Riley follows:]

 Prepared Statement of Pamela L. Riley on Behalf of the Center for the 
                     Prevention of School Violence

    The Center for the Prevention of School Violence operates with its 
eyes focused on a vision. This vision is that ``Every student will 
attend a school that is safe and secure, one that is free of fear and 
conducive to learning.'' The elements which comprise this vision 
highlight that every student is entitled to attend a safe school, that 
schools need to be places that maintain climates that are characterized 
by safety and security, that these schools must be free from even 
ungrounded feelings of fear, and that these schools provide 
environments that are conducive to the educational missions of all 
schools--teaching and learning.
    Concern as to whether schools across the country are living this 
vision every day they open the school-house doors obviously has been 
heightened by specific incidents we have experienced collectively as a 
nation. The names of the locations of these incidents are well known to 
all: Pearl, Mississippi, West Paducah, Kentucky; Jonesboro, Arkansas; 
Springfield, Oregon, Littleton, Colorado. While these incidents have 
captured our attention to legitimately by concerned about the safety of 
our children and youth as they attend school, they do not truly reflect 
the everyday realities of schools across the country.
    This reality is reflected in the increasing number of reports which 
convey that school violence as reflected by the types of discipline and 
criminal incidents that are being documented is not on the rise but, in 
fact, has been at least occurring at somewhat constant rates and has 
even decreased in some categories. Findings from the U.S. Department of 
Education's 1999 Annual Report on School Safety illustrate this 
reality:
          <bullet> Most injuries which occur at school are not the 
        result of violence;
          <bullet> Student ages 12 through 18 are more likely to be 
        victims of serious violent crimes away from school than at 
        school;
          <bullet> The overall school crime rate between 1993 and 1997 
        declined, from about 155 school-related crimes for every 1,000 
        students ages 12 to 18 in 1993, to about 102 such crimes in 
        1997;
          <bullet> Fewer students are carrying weapons and engaging in 
        physical fights on school grounds.
    As stated in the Annual Report, schools are the safest places 
children and youngsters spend time on a day-to-day basis. The chances 
of a student being killed in an incident such as the ones we have 
experienced are less than one in a million.
    So, if this is what the numbers are saying, why do we need to 
pursue efforts to make schools safer places for teaching and learning? 
The answer is complex and begins with understanding that the one-in-a-
million odds do not provide a comfort zone for parents who see their 
children go off to school every morning. Many students, teachers, 
administrators, and other school staffer also do not all see the odds 
as potential armor with which they can shield themselves should an 
incident occur.
    Additionally, the ``it can't happen here'' philosophy of school 
safety cannot be afforded. The Annual Report points out that while the 
number of homicides has decreased in recent years, the number of 
multiple-homicide incidents has increased. The fact that we are even 
talking about multiple-homicide incidents taking place at schools 
should give us pause to examine the efforts schools are pursuing to 
make their environments safer.
    And indeed, another key to understanding the need to pursue efforts 
is that schools are in the mode of making their environments safer--not 
just safe. The vast majority of schools can already be described as 
``safe'' environments; a relative few experience incidents which must 
be reported to law enforcement agencies. Most of the incidents which 
occur are of the variety that fall under the umbrella of school 
discipline and not law enforcement action.
    This acknowledgement, however, does not dismiss the fact that 
incidents occur; it only helps us understand that efforts directed at 
making schools safer places must be targeted to the more common 
occurrences being experienced in schools across our nation. And the 
linkage of these more common occurrences to the potential occurrence of 
more serious incidents must not go unacknowledged. If we are to truly 
prevent more serious incidents from happening, we need to target as 
much effort as possible at the incidents that are of a disciplinary 
nature while still preparing ourselves to intervene and respond when 
criminal and violent situations occur.
    The Center for the Prevention of School Violence defines ``school 
violence'' as ``any behavior that violates a school's educational 
mission or climate of respect or jeopardizes the intent of the school 
to be free of aggression against persons or property, drugs, weapons, 
disruptions, and disorder.'' These behaviors exist along a continuum 
which reflects, as movement occurs from one end of the continuum to the 
other, increasing escalation in the seriousness of the behavior. 
Movement along the continuum takes us from disciplinary concerns to 
crime and violence concerns. On one end of the continuum are behaviors 
such as put downs, insults, trash talking, and bullying; on the other 
end are hate crimes, gangs, rape, murder, and suicide. Our work across 
the country confirms that the disciplinary concerns are where we need 
to focus prevention efforts while at the same time building school and 
community capacities to prevent, intervene, and respond should 
escalation to more serious incidents be likely or actually occur.
    How we go about focusing our prevention, intervention, and response 
efforts is critical because it provides a framework for actions that 
need to be taken at the national, state, and local levels. What needs 
to occur at all levels is a process which involves four steps: 
assessment of conditions which includes assessment of both strengths 
and weaknesses/needs/problems; comprehensive planning; ``best-
practices'' implementation; and utilization-focused evaluation.
    As the first step, the assessment of conditions enables us to 
understand the status quo. From such knowledge, we can better plan, 
implement, and evaluate efforts. To undertake assessment, we need to 
identify trends that help both define the status quo and offer some 
sense of direction for the future.
    The Center for the Prevention of School Violence has identified 
continuing trends and emerging trends and strategies as it endeavors to 
make its vision a reality. The continuing trends, first articulated in 
the mid 1990s, include:
          <bullet> Increasing attention being paid to the problem of 
        school violence;
          <bullet> Growing awareness that educational missions of 
        schools are being disrupted by the problem;
          <bullet> Rising and intensified concern over the severity of 
        the problem; and
          <bullet> Acknowledgement of the negative consequences that 
        the problem generates.
    Emerging trends, identified in late 1999, include:
          <bullet> Intense media coverage of school violence incidents;
          <bullet> Better understanding, as articulated in the above 
        discussion of the continuum, of the nature of ``school 
        violence'';
          <bullet> Increased efforts to identify `'best practices'';
          <bullet> Heightened emphasis placed upon program 
        ``effectiveness'';
          <bullet> Pursuit of involvement of more stakeholders--
        particularly students, parents, and communities members--in 
        efforts directed at making schools safer; and
          <bullet> More attention paid to comprehensive efforts which 
        involve prevention, intervention, and response.
    Emerging strategies which are being pursued by schools and 
communities include:
          <bullet> The development of crisis management plans;
          <bullet> The conduct of audits and assessments of the 
        physical security of schools with application of crime 
        prevention principles;
          <bullet> The application of security technologies such as 
        metal detectors, surveillance cameras, and specialized locking 
        systems;
          <bullet> The full-time assignment of law enforcement 
        officers, particularly School Resource Officers (SROs), to 
        schools in roles that allow for comprehensive services to be 
        performed;
          <bullet> Training of all school staff in identification of 
        early and imminent warning signs as well as in response to 
        these signs;
          <bullet> Emphasis on conflict management skills and character 
        education; and
          <bullet> Reexamination of school codes of conduct with 
        emphasis on consequences and consistent enforcement.
    The continuing and emerging trends and strategies provide a sense 
of what is taking place and the direction in which school safety 
efforts are headed. At the national level, knowledge of these trends 
and strategies enables us to think through planning, implementation, 
and evaluation issues which ultimately involve the question of how the 
capacities of states and local communities and schools can be enhanced 
to address their particular assessed conditions.
    At the state level, the past year has seen task forces, legislative 
study commissions, and summits convened to assess conditions and plan 
for the future. Additionally, in many states, examination of laws and 
policies which relate to school safety has taken place.
    North Carolina, the home state of the Center for the Prevention of 
School Violence, reaped the benefit of Governor Jim Hunt's creation of 
the Governor's Task Force on Youth Violence and School Safety which met 
over the summer of 1999 and actually served two functions. Because 
North Carolina had had a Task Force on School Violence in 1993, one 
function the 1999 Task Force was charged with was revisiting what the 
state had accomplished since 1993 and determining what it has yet to 
do. The second function it served was as a response to the heightened 
public concern about school violence which Columbine and the other 
school shootings had prompted.
    North Carolina's Task Force recommendations are somewhat reflective 
of what other state task forces, study commissions, and summits in many 
states including Georgia, Illinois, Indiana, Maryland, and South 
Carolina. Six main recommendations were offered by the Task Force and 
provide some sense of direction at the state level:
          <bullet> All parents must be involved in their children's 
        education.
          <bullet> Student involvement is essential to promoting school 
        safety.
          <bullet> Every school should be given the tools needed to 
        develop and implement stronger school safety plans, including a 
        set of accountability standards to measure the progress of 
        their plan.
          <bullet> There must be support for efforts to provide every 
        student and every school staff member with a school environment 
        free from violence and the threat of violence, conducive to 
        learning, and characterized by caring, respect for all, and 
        sensitivity to diversity.
          <bullet> Early identification of risk factors and behavioral 
        problems must take place. Prevention and intervention 
        strategies can be best implemented through early 
        identification.
          <bullet> Everyone must take responsibility for the 
        communities where our youth are raised.
    This list of recommendations further generated Action Items which 
include:
          <bullet> The establishment of a statewide anonymous tip line 
        for reporting school safety concerns with an accompanying 
        education campaign directed at bringing all stakeholders 
        together to ``Work Against Violence Everywhere'' (WAVE);
          <bullet> Early warning signs information being sent to 
        parents;
          <bullet> Reviews of state-required safe school plans and 
        planning;
          <bullet> Dissemination of Task Force results to all school 
        superintendents, local boards of education, principals, parent 
        organizations, Students Against Violence Everywhere (S.A.V.E.) 
        chapters; and School Resource Officers (SROs) so that actions 
        based upon Task Force results could be undertaken; and
          <bullet> Pursuit of a project by the Center for the 
        Prevention of School Violence directed at training pre-service 
        teachers and administrators in conflict management strategies.
    School year 1999-2000 saw implementation of these Action Items.
    With all of these efforts being put forth at the state level across 
the country, the bulk of efforts to make our schools safer still lies 
at the local level with schools and communities truly pursuing the 
previously identified steps of assessment, planning, implementation, 
and evaluation. It is at this level that enhanced capacities become 
most critical. The U.S. Department of Education's Early Warning/Timely 
Response: A Guide To Safe Schools makes a strong argument for such 
enhanced capacities and provides some direction as to what schools need 
to direct efforts towards in its delineation of the characteristics of 
safe schools:
          <bullet> Focus on academic achievement;
          <bullet> Meaningful involvement of families;
          <bullet> Links to the community;
          <bullet> Positive relationships among students and staff;
          <bullet> Awareness and discussion of safety issues;
          <bullet> Equal respectful treatment of students;
          <bullet> Involvement of students;
          <bullet> An environment receptive to the student expression 
        of concerns;
          <bullet> Referral systems for students who are suspected of 
        being abused or neglected;
          <bullet> Extended day programs;
          <bullet> Promotion of good citizenship and character;
          <bullet> Problem-solving processes to address situations that 
        occur; and
          <bullet> Support for students as they experience transitional 
        phases.
    With this knowledge in mind, schools and communities know what to 
focus upon as they work toward their own visions of what safety in 
their schools would look like. To further this work, the assessment of 
conditions needs to take place so that the planning, implementation, 
and evaluation which follow will be aligned with what already is in 
place and what is identified as a problem or need.
    The Center for the Prevention of School Violence provides a 
framework for this assessment which is delineated by the ``Four S's'' 
of assessment: site assessment; statistics; surveys; and student 
involvement. Site assessment involves examination of the physical 
security of the school as well as the school's climate to determine how 
to best ensure that the physical environment is as secure as possible 
from both outside and inside attack while balancing this effort with 
maintaining conduciveness to learning. Statistics involve keeping both 
discipline and criminal incident data and using the information 
reflected by them in safe school planning efforts. Surveys introduce 
qualitative data into the picture with direction given that input from 
all major stakeholders (parents, students, and school staff) be 
collected and made part of the assessment. And student involvement 
takes student input to the next level by highlighting that students be 
given opportunities to participate in safe school planning, problem 
solving, and implementation.
    The information generated by the ``four S's'' provides 
understanding of the current condition and allows for comprehensive 
planning based in data and knowledge to occur. Comprehensiveness is 
defined by the previously mentioned prevention, intervention, and 
response. Prevention refers to stopping problems before they have a 
chance to occur. Intervention involves having in place mechanisms to 
respond to incidents or to reduce the escalation of such incidents into 
greater problems. Response refers to crisis response; when a crisis 
does occur, steps are in place to handle the crisis, manage it, and 
return the school back to normal operations as quickly as reasonable.
    In addition to comprehensiveness being defined in terms of 
prevention, intervention, and response, comprehensive is also defined 
by addressing the different dimensions of school safety which exist. 
The Center for the Prevention of School Violence identifies these 
dimensions as the ``Three P's'' of school safety: place; people; 
purpose. ``Place'' refers to the physical environment of the school and 
that safe school plans must account for the safety and security of that 
environment. ``People'' refers to the people in the school and how they 
relate to each other. ``Purpose'' refers to continuing emphasis being 
placed upon the reason schools exist in the first place--their 
educational missions to teach and promote learning.
    Finally, comprehensiveness is defined with reference to accounting 
for the reality that school violence is not only a school problem; it 
is a community problem. Research indicates that one of the strongest 
correlations identified in this arena is that communities and schools 
reflect one another. This is true in terms of both positive and 
negative influences. For planning to be comprehensive, it needs to look 
out to the community to understand what it offers and how it impacts 
the school. It needs to reach out to the community and include 
community stakeholders in the planning efforts. It needs to include 
community in its efforts to be prevention, intervention, and response 
oriented. And it needs to incorporate links to community resources into 
the implementation of safe school plans.
    The implementation of safe school plans needs to be approached with 
attention paid to effectiveness and ``best practices.'' Although still 
somewhat thin in terms of amount, there is increasing identification of 
``effective'' programs for preventing school violence and even more 
identification of programs that are ``promising.'' The Center for the 
Prevention of School Violence's Safe Schools Pyramid, a model that 
reflects the need for multiple strategies which address the ``Three 
P's'' of school safety, is comprised of such promising strategies. 
These strategies are offered for schools to consider as they work with 
their assessment information, address the dimensions of place, people, 
and purpose, and incorporate community links and resources into their 
planning.
    The Pyramid highlights not only that the strategies chosen by 
schools for implementation need to address the ``Three P's,'' but that 
these strategies should form a comprehensive approach with each one 
working in concert with the others and, in combination, enabling a 
school to direct efforts along a path upon which strategies facilitate 
and support one another. The promising strategies which comprise the 
Pyramid include:
          <bullet> School Resource Officers (SROs): School Resource 
        Officers (SROs) are certified law enforcement officers who are 
        assigned full time to schools and are trained to perform three 
        roles: law enforcement; law-related counseling; and law related 
        teaching. The number of SROs nationally is estimated at 15,000.
          <bullet> Law-related education (LRE): Law-related education 
        (LRE) refers to preparing young people to become good citizens 
        in our democratic society. It includes emphasis being placed 
        upon both the rights and responsibilities that young people 
        have as members of our communities.
          <bullet> Conflict management and peer mediation: Conflict 
        management and peer mediation address the development of life 
        skills which are directed at handling conflicts. Active 
        listening and problem solving are emphasized as students learn 
        these skills.
          <bullet> Students Against Violence Everywhere (S.A.V.E.): 
        Students Against Violence Everywhere (S.A.V.E.) is a student 
        involvement nonviolence approach. It involves the creation of 
        student-led chapters and speaks to the increasing amounts of 
        research which highlight the need for avenues of student 
        ``connectedness.'' Chapters exist in 27 states with over 60,000 
        student members. The Center for the Prevention of School 
        Violence serves as S.A.V.E.'s national clearinghouse.
          <bullet> Teen/student court: Teen and student courts 
        communicate the message that there are consequences when young 
        people inappropriately behave. Teen courts total over 600 in 
        the country and exist as a diversion to the juvenile justice 
        system. Student courts serve as a component of student 
        disciplinary processes within schools. Both are characterized 
        by participation of youth in the court procedures which take 
        place.
          <bullet> The application of crime prevention principles to 
        physical design as well as the application of security 
        technology: As previously stated, attention being paid to 
        physical security issues, including the application of security 
        technology, is an emerging strategy. By doing so, the safety 
        and security of the physical environment can be established and 
        maintained in ways that both prevent crime and assist in 
        creating environments that are conductive to learning.
    By implementing such a package of strategies which are selected 
based upon assessment and with prevention, intervention, and response 
in mind, schools can be said to be prevention oriented, proactive in 
their efforts, and programmatic. The latter point is important as 
research indicates that programmatic approaches which are characterized 
by staff training, materials, and evaluation are more likely to be 
effective.
    The point regarding programmatic approaches needs to be emphasized 
as it relates to one other element which must be kept in mind when 
thinking through implementation. That element involves the previously 
mentioned emerging trend or more efforts being put into identification 
of best practices. Best practices implementation speaks to the 
employment of programs, be they identified as effective or promising, 
with efforts that maximize how to best carry out the program so that 
program intent and integrity are maintained and opportunity for success 
exists. With best practices employed, successful outcomes and impacts 
are more likely to be accomplished.
    One way to move toward best practices implementation is to evaluate 
programs in terms of both process and impact. This evaluation is the 
last step schools and communities must take as they put forth efforts 
to make schools safer. Although the last step in our discussion here, 
thoughts of evaluation should never be left to the last but must be 
part of the planning process that takes place. When planning is being 
done, the basic question of ``how we will know our plan is working?'' 
needs to be asked. This question prompts thoughts toward evaluation and 
generating information which will tell us if what we are doing is 
making our schools safer.
    As stated, evaluation of programs should be undertaken in terms of 
both process and impact. Process relates back to best practices: how 
should the program be carried out? Impact refers to outputs and 
outcomes: what differences are the programs making on variables that 
stand as valid indicators of school safety?
    What is generated in the name of impact evaluation has at times 
been divided as evidence versus proof. Evidence involves information 
that may not be the result of rigorous methodologically sound research 
designs but instead often is provided by practitioners who offer 
anecdotes and sometimes even statistics of what they believe is 
working. Proof involves more methodologically rigorous information.
    Often in this arena the difference between evidence and proof 
creates a divide between practitioners and researchers. What 
practitioners believe to be working based upon their daily experiences 
in schools is often discounted by researchers, and what researchers 
argue works is often difficult to understand by practitioners. 
Sometimes, it is difficult to replicate as well and suffers from 
limited generalizability in the real world of school bells and 
cafeteria duty.
    These differences should not turn us away from evaluation but 
instead should prompt us to bridge the gap between practitioners and 
researchers. Each group needs to better understand the worlds each 
operates in and, in particular, each needs to be willing to accept what 
each has to offer in terms of their knowledge of what is working.
    At the local level this is most true because this is where program 
implementation takes place. At the state and national levels, however, 
this is also true because too often the gap which has been identified 
precludes pursuit of strategies that may, in fact, be able to 
contribute to making schools safer. That is why actions at the state 
level need to be in some way centralized in the arena of school safety. 
The track record of the Center for the Prevention of School Violence as 
a primary point of contact for concerns about school violence speaks to 
how such a primary point of contact can assist local efforts, 
coordinate state initiatives, and provide services across the nation. 
For seven years, the Center has served as a bridge for cooperation 
between stakeholders and has enabled stakeholders to approach school 
safety and youth violence with comprehensive effort and understanding.
    The Center's mission to foster cooperation between and among 
government agencies at the state and local level, to offer information 
and skill building opportunities for planning, research, and evaluation 
efforts, and to provide information and program technical assistance to 
practitioners sheds light on the areas which are in need of enhancement 
of capacity at the local level. The services and supports offered by 
the Center are driven by needs which have been articulated by those who 
work to make schools safer on a daily basis.
    These needs are what must be addressed with federal actions. Some 
recommendations for these actions include providing leadership and 
direction which is grounded in national assessment, comprehensive 
planning, implementation, and evaluation. Enhancing the capacities of 
states to serve as primary points of contact is crucial and, key to 
success in this regard, is to enable successful primary points of 
contact such as the Center for the Prevention of School Violence to 
serve as models for others to emulate. Finally, closing the gap between 
practice and research must be pursued. Bridging this gap by 
acknowledging the importance of both will in due course assist 
practitioners in their efforts to make their schools safer.
    Ultimately these practitioners are the individuals who will make 
the Center's vision that ``Every student will attend a school that is 
safe and secure, one that is free of fear and conducive to learning'' a 
reality in school buildings across the nation. Every student deserves 
to go to school with no concerns about safety and security. There 
should be no fear in their hearts and minds, nor in the hearts and 
minds of their parents, when students enter the school-house door. And 
the sounds of ringing school bells should signal that learning is about 
to take place in an environment which is safe, secure, and conducive to 
fostering educational excellence and success.

    Senator Biden. There are a few more people I would like to 
introduce. Major Joe Bryant is here from the Newcastle County 
Police and Captain Debbie Rees and other DARE officers are 
here, as well, and Mary Ann Pry, the Delaware State Education 
Association President is here, as well as Dr. Nick Fisher, the 
Superintendent of Christina School District. As others come in, 
I will introduce them.
    By the way, I do not want to intimidate you to have to do 
this because it is not going to go long, but any of the 
legislators who wish to come up and sit up here and ask 
questions, as well, please come up and join me. You can come up 
now or when the questions start, any time you want to do it.
    Jon.

STATEMENT OF JON YEAKEY, COORDINATOR, NATIONAL RESOURCE CENTER 
                        FOR SAFE SCHOOLS

    Mr. Yeakey. Senator Biden, I would like to thank you for 
this opportunity to speak with you today and with the members 
that we have joining us today. It is a sincere pleasure of mine 
to take part in this hearing and have a chance to share with 
you perspectives on youth violence.
    I think that two of the greatest problems we have right now 
are misconceptions going on in this country. One of them you 
touched on, and that was that youth violence is rampant in our 
schools and our schools are not safe, and that is just not 
accurate and not true, and that is something I think we have to 
continue to combat with our parents and our community so that 
they feel more comfortable and that schools are being 
responsive to the needs of their kids and their families.
    I think one of the other problems that we are facing in the 
wake of the tragedies that occurred in Littleton, CO, and 
Springfield, OR, and other places is that many States are 
mandating and legislating schools to develop school safety 
plans and the essence of these plans are not prevention or 
comprehensively focused but they are crisis response plans, in 
essence, and the terminology we are using is a safe school plan 
and so schools believe that if by devising a crisis response 
plan per se they have insulated themselves from having an event 
occur at their schools, and that is a real unfortunate 
misconception that schools have right now.
    Crisis response plans do not prevent random acts of 
violence like what occurred in Littleton. They are a response 
to what could happen if something happened. It is a way to 
respond and salvage your school and community and your children 
and provide the greatest support for them in the aftermath, but 
they do not prevent anything.
    I think what the National Resource Center for Safe Schools' 
greatest mission right now is to develop schools' understanding 
of what comprehensive safe school strategy is. Safe school 
planning is a process. It is not a one-time thing. It is not an 
event that you do. It is not a one-time plan that you put 
together and it goes on a shelf like many crisis response plans 
have been over the past decade. Safe school planning is a 
process. It is a process that starts by schools connecting with 
community groups and community organizations and agencies and 
families that support their school and support the issue of 
youth violence and trying to eliminate it.
    For years, schools have looked at school violence as if it 
is an issue that they themselves have to try and tackle. It is 
not. Youth violence does not exist within a vacuum within the 
four walls of a school. It is something that occurs in our 
community at large and it is something that finds its ways into 
our hallways.
    What we need to do, as Pam talked about, is that we need to 
connect with local law enforcement agencies and community 
mental health and we need to get statistics and information 
from them of what is going on in the community at large. We 
need to gather information from both the community and our 
school district and look at what the issues are that are facing 
our kids. We need to make valuable partnerships with those 
groups. Schools are not in this alone. They are not going to be 
successful at lessening youth violence without partnering with 
local law enforcement and community mental health to support 
kids throughout this process and provide the prevention/
intervention strategies that Dr. Riley talked about earlier.
    I think by building those partnerships, we are going to be 
better able to address the needs of our students and our 
families, but most importantly, within developing these 
partnerships we have to develop the most important partnerships 
and those are with the youth of our schools. For years, we have 
bypassed the youth of our schools as being the kids that we 
needed to talk to and not hear from.
    Kids, as Dr. Riley talked about, as you talked about, 
Senator Biden, are our most valuable source of information, our 
most valuable resources we could possibly have, and we have to 
treat them that way. Instead of acting to them and giving them 
directives and telling them what they need to do, we need to be 
seeking out information from them and we need to make sure we 
are doing it in a way that provides for their safety.
    Senator Biden. Jon, talk like a student. Tell me what the 
hell that means.
    Mr. Yeakey. What we need to do is we need to talk to kids.
    Senator Biden. But give me an example of how that works.
    Mr. Yeakey. We need to find ways for kids to share 
information with us, anonymous surveys, tip lines, more people 
in schools for kids to be able to connect to and talk to and 
give us information, because kids have it. They know what is 
going on in their school and we need to provide opportunities 
for them to share it with us and make sure that they know that 
they are not going to get in trouble for telling us. They are 
not going to have repercussions from bullies in the school or 
from kids that they tell on or kids that they share with. Kids 
need to talk to us about those things and we need to provide 
the avenues for them to do so. I think by involving them in the 
process, we will get a much better handle on what is going on 
in our schools becausethey know much better than oftentimes we 
do.
    I think part of this process, after developing those 
partnerships and involving those people in this process, is to 
do some of the things that Dr. Riley talked about and that is 
do a needs assessment. Many of our schools are reacting on gut 
instinct right now. They are simply looking at problems that 
they perceive are in the school without having any real data on 
it. Somebody says, we have a gang problem, and they 
automatically want to go grab a gang prevention curriculum and 
stick it in the school without any real evaluation or 
understanding of whether they have a gang problem or the 
culture or nature of the gang they may have.
    I had a school district in California who could not 
understand why a proven resource-based gang prevention program 
was not working for their school. They took it off of a shelf. 
They looked into it. They thought it was a great program. They 
instituted it in their school only to find out that it was a 
gang program that was aimed at African-American youth and 
African-American gangs and they had an Hispanic gang problem. 
Those gang cultures are very, very different, and what one 
program may work for one group of kids may not for others and 
we need to be thoughtful about that. Instead of schools 
reacting on gut instinct, we need to make sure we look at our 
priorities and look at the things that are happening in our 
school and address those things appropriately.
    After doing those assessments and we know what our problems 
are, we need to take research-based approaches to be 
successful. We do not need to grab at straws. Schools right now 
are being inundated by snake oil salesmen, people telling them 
that this will work, buy this program, institute this, without 
any real research to back it up. And when asked, well, who 
researched it, where did you find the statistics, they said, 
well, we researched it. It is real convenient when people 
selling their program have done their own research to show that 
it has been beneficial.
    There are groups out there, such as the Center for the 
Study and Prevention of Violence in Colorado, Hamilton Fish 
Institute in Washington, D.C., that are doing the research on 
programs to let you know what is effective and what worked and 
we have got to get that information to schools so that they are 
not grabbing at straws.
    I think after that, schools need to look at all the 
essential components of school safety and violence prevention, 
their school policies. What are they doing right that is 
supporting their schools and what are they not doing? What are 
their school policies around discipline, around involving their 
school resource officers? School resource officers should be 
much more than an intimidator at a school. They do not need to 
be there solely as a person to walk around and scare kids into 
being good. School resource officers are another caring adult 
to have at our school. We need to utilize them that way. We 
need to get them in classrooms, provide them opportunities to 
make connections with kids so that kids will open up and share 
with them and talk to them in meaningful ways.
    And finally, schools need to look at evaluating this 
process and they need help doing so. Senator Biden, I think one 
of the biggest problems that schools face right now is they do 
not have the resources to do this process or to support this 
process and a lot of them do not have the expertise to do it. 
There are at this point 14 State school safety centers around 
this country in States that have mandated and developed a 
training and technical assistance center to assist schools in 
doing this process.
    Schools do not have evaluators oftentimes on staff that 
know how to evaluate programs. They are not great statistic 
gatherers. They take statistics but they do not organize them 
oftentimes effectively. Schools need help in doing this 
process, and if they do not have a State school safety center 
or some entity within their State to assist them, then they 
have to fall back on our center as a national center to try and 
support them in this process, and that is very difficult 
because there is only limited resources for all those school 
districts that need this help.
    But school districts right now that are being the most 
successful are finding ways to partner with centers that are 
working to reduce youth violence, universities of higher 
education that help support this process and are using this as 
a way to help schools and support them, or by looking for 
national support through Federal agencies such as our own. So 
with that----
    Senator Biden. Thank you very much.
    [The prepared statement of Mr. Yeakey follows:]

Prepared Statement of Jon M. Yeakey on Behalf of the National Resource 
                        Center for Safe Schools

          ABOUT THE NATIONAL RESOURCE CENTER FOR SAFE SCHOOLS

    The National Resource Center for Safe Schools is operated by the 
Northwest Regional Educational Laboratory through a cooperative 
agreement with two federal agencies: the United States Department of 
Justice through its Office of Juvenile Justice and Delinquency 
Prevention and the United States Department of Education's Office of 
Safe and Drug Free Schools Program. The Center is located in Portland, 
Oregon. The mission of the National Resource Center for Safe Schools 
(NRCSS) is to provide training, technical assistance, resources and 
information on school safety and violence prevention to school 
districts, law enforcement agencies, community organizations, state and 
local agencies working on reducing youth violence and creating safe 
schools. The Center operates a lending library with resources and 
information relating to school safety planning and essential components 
for safe schools. The Center's Webpage (www.safetyzone.org) contains a 
database on effective school-based and community programs for violence 
prevention.
    The National Resource Center for Safe Schools has developed 
multiple approaches to providing training and technical assistance to 
states and local school districts. The center is conducting several 
regional training conferences aimed at developing capacity at state and 
local levels. These regional training's provide information and 
resources to educators from a seven-state region. Invitees include 
school personnel, local juvenile justice specialists, community mental 
health providers and state level agencies. The purpose of these 
conferences is to encourage school/community partnerships and to 
facilitate the development of local comprehensive safe school plans.
    The National Resource Center for Safe Schools is also working with 
several state educational agencies to identify high need school 
districts that desire to implement comprehensive safe school plans. 
Identified districts are required to bring teams to the training that 
include representatives from schools, juvenile justice, law 
enforcement, and community service agencies, especially community 
mental health and other agencies serving youth. Center staff train 
these teams using curriculum developed by NRCSS, Creating Safe Schools: 
A Comprehensive Approach.
    The National Resource Center for Safe Schools is working with state 
and local educational agencies to share current information and 
resources on school safety such as: school safety assessment 
instruments: guiding principles on effective safe school planning; 
researched based programs in violence prevention; and evaluation 
resources to monitor and adjust safe school programs.

               A COMPREHENSIVE APPROACH TO SCHOOL SAFETY

    The National Resource Center for Safe Schools believes that 
developing safe and effective schools cannot be accomplished simply 
through the installation of metal detectors, security cameras, or a 
``feel good'' curriculum program aimed solely at raising children's 
self-esteem. Rather, schools must recognize that school safety must be 
planned and coordinated carefully with the stakeholders in the school 
and community who have an interest in eliminating youth violence and 
creating safe schools. In the aftermath of recent horrific events 
schools are anxious to adopt quick-fix solutions in an effort to appear 
responsive to parent and student concerns that their school may not be 
safe. Some of these quick fixes include spending important resource 
dollars on metal detectors, surveillance cameras, or a curriculum. 
Often this is done without knowledge of the research to help guide them 
in determining the effectiveness of their actions in reducing youth 
violence. In some cases such actions can actually be harmful to our 
youth and detrimental to a school's efforts to reduce violence.
    School safety cannot be instituted on a short-term time frame and 
then forgotten. In conjunction with essential partners schools must 
develop a schoolwide environment that meets the safety and security 
concerns of all children, their families, and school personnel.
    This process begins with a school administration that understands 
the critical connection between providing for a safe and secure 
learning environment and overall student learning and achievement. To 
effect change and to alter an unsafe and uninviting school environment, 
school administrators must be committed to the success of all students. 
While statistics show that schools are by far the safest place for our 
youth unfortunately many of our students attend schools where threats, 
bullying, intimidation and acts of violence are commonplace. Seen from 
this perspective such schools are a haven for psychological and 
emotional damage for children and youth. Left unaddressed these 
problems provide the foundation for future and possibly more serious 
acts of violence.
    Through the media the public has become aware of what happens to 
children and youth who are ostracized, intimidated, and ridiculed. The 
examples provided by the events in Littleton, Colorado, Springfield, 
Oregon and Jonesboro, Arkansas lends credence to the idea that the 
perpetrators acted out their violence after prolonged experiences of 
teasing, bullying, and feeling disenfranchised not only in the schools 
but also in the communities in which they lived. Therefore educators 
must understand the critical impact that school environment can have on 
young people. An essential mission for all schools is that there will 
be high and positive expectations for every child and youth. Similarly 
the school must demonstrate that every child is valued and that every 
child can be successful with the proper support and encouragement.
    In order to accomplish this mission schools must develop the 
critical collaborative relationships with community agencies that can 
assist and support them in the process of creating a safe school. For 
years some schools have viewed the issue of school safety as an 
expectation placed solely on their shoulders. Because schools cannot 
operate in isolation, schools need the meaningful involvement of 
students and parents along with the school/community partners where 
information about the conditions at the school and in the community are 
exchanged openly and solutions to school and community youth violence 
are determined collectively.
    Students are often very much aware of critical information 
regarding their peers. Unfortunately because adults tend to speak down 
to youth instead of seeking out their knowledge and allowing youth to 
play a critical part in making our schools safe we miss an opportunity 
to involve the students in a meaningful way. By acting as mentors and 
peer mediators for other students experiencing problems in the school 
and community students can also become active role models for 
appropriate behavior and for helping to foster the skills other youth 
will need in resolving conflict and managing anger. We mustalso solicit 
the involvement of families as active participants in supporting school 
safety measures.
    Youth violence is not solely a school issue. Once effective 
community collaboration has been established, schools and other 
stakeholders within the community must gather data collectively through 
a comprehensive needs assessment to make informed decisions about the 
risk factors that they want to target and to institute systemic changes 
in their school. A school must look at information from a broader 
perspective than simply what is occurring within its four walls. The 
effort to reduce youth violence requires a clear understanding of both 
risk and protective factors that persist in our schools and 
communities. Schools must gather and organize data on both risk and 
protective factors that allows them to gain an accurate picture of what 
is occurring both in their school and in the community at large. 
Examples of such data include, but are not limited to, the following:
          <bullet> School discipline referrals and expulsions;
          <bullet> Student reports of weapons and safety concerns;
          <bullet> Student and parent involvement in school and 
        community activities;
          <bullet> School calls to local law enforcement;
          <bullet> Schools policies and parents' and students' 
        perception of their effectiveness and enforcement;
          <bullet> Dropout and truancy statistics;
          <bullet> Drug and alcohol statistics;
          <bullet> Homeless statistics;
          <bullet> Juvenile justice statistics in the community;
          <bullet> Community health and mental health statistics;
          <bullet> Hospital statistics for the numbers of emergency 
        room visits by children and youth.
    This data should be organized into a school-community profile that 
presents the information on both graphic and narrative formats. This 
profile can then be used to analyze and prioritize the various issues 
facing the schools and youth at school and in the community. Only by 
educating the various stakeholders in this process will they be able to 
develop a common understanding of what is affecting the youth at school 
and in the community. Too often schools are perceived as being 
indifferent to the needs of the students or the concerns of parents. 
Only by sharing the information and decision making that goes into the 
safe school planning process will schools be successful in changing the 
climate and environment of their school to create a school that is safe 
and responsive to all students.
    The essential components of a safe school plan include:
          <bullet> A nurturing and caring school climate;
          <bullet> Attention to safety of the school facility;
          <bullet> Supportive school policies;
          <bullet> Crisis Response plans;
          <bullet> Schoolwide behavior codes;
          <bullet> Identification and referral of students with special 
        needs;
          <bullet> Staff development;
          <bullet> High academic expectations with supportive 
        instruction;
          <bullet> High expectations for behavior and student conduct;
          <bullet> School-community partnerships integrated into the 
        school environment;
          <bullet> Open communication regarding safety issues;
          <bullet> Schoolwide programs aimed at prevention, targeted 
        intervention and intensive interventions.
    Goals and objectives designed by the school-community-based team 
must be data driven and avoid the pitfall of making decisions and 
committing resources based on intuition and gut reactions.
    Recently a great deal of energy has gone into identifying and 
researching violence prevention programs for effectiveness. The 
research has shown that while some programs have been proven effective 
at reducing violence, others have actually been shown to be ineffective 
or even harmful to youth. Schools must carefully select programs that 
have been evaluated on their ability to reduce violence or other 
mediating factors. Several groups have done exceptional work in 
identifying and evaluating programs. The Hamilton-Fish Institute has 
identified twelve programs that reduce violence and have shown to be 
effective over a year time span. Additionally, these programs have 
shown they can be replicated in more than one location. These programs 
include:
          <bullet> Anger Coping Program;
          <bullet> Brain Power Program;
          <bullet> First Steps to Success;
          <bullet> Good Behavior Game;
          <bullet> I Can Problem Solve;
          <bullet> Kid Power;
          <bullet> Metropolitan Area Child Study;
          <bullet> Peer Mediation Program;
          <bullet> Positive Adolescent Choices Training;
          <bullet> Teaching Students to be Peace Makers;
          <bullet> Think First;
          <bullet> Violence Prevention Curriculum for Adolescence.
    A more detailed description of these programs can be found at the 
Hamilton-Fish website: www.ham-fish.org.
    In addition the Center for the Study and Prevention of Violence has 
reviewed multiple programs and selected ten they have evaluated and 
identified as Blueprint Programs as effective in preventing violence. 
These programs include:
          <bullet> Midwestern Prevention Program;
          <bullet> Multi-systemic Therapy;
          <bullet> Big Brothers Big Sisters;
          <bullet> Nurse Home Visitations;
          <bullet> Functional Family Therapy;
          <bullet> Treatment Foster Care;
          <bullet> Quantum Opportunities;
          <bullet> Bullying Prevention Program;
          <bullet> Life Skills Training;
          <bullet> Promoting Alternative Thinking Strategies (PATHS).
    A more detailed description of these programs can be found at the 
Center for the Study and Prevention of Violence website: http://
www.colorado.edu/cspv/.
    As school-community partnerships craft their plans it is critical 
that schools, families and local agencies understand the school and 
community policies and procedures that will be instituted to support a 
safe school environment. Too often schools and communities have 
misunderstandings about how various agencies will respond and why. 
Seamless services must be provided to protect and support youth through 
transitions from one grade to the next, from alternative educational 
settings or to the juvenile justice system. Parents and collaborating 
agencies must understand how one another operate and how those actions 
can best support the youth of the community. Schools must review the 
discipline policies and behavioral expectations of both youth and staff 
members so that high behavioral and social expectations are maintained 
and all members of the school community are treated equally and fairly 
with appropriate respect and consideration.
    School facilities have received a great deal of focus following the 
multiple shootings that have occurred in recent years. While this is an 
essential component of a comprehensive approach, it remains only one 
piece of a very important whole. Schools may not have the financial 
resources to significantly alter their school facility. Therefore it is 
essential that schools conduct a facilities audit and evaluate the 
safety considerations evident and unique to their facility. Instruments 
for facilities assessment are available through NRCSS and also from the 
Georgia Emergency Management Agency.
    School-community-based teams should review the principles presented 
in the document ``Early Warning, Timely Response'' and ``Safeguarding 
Our Children: An Action Guide.'' These two documents have been 
developed through the collaboration of the U.S. Justice Department and 
the U.S. Department of Education. Both of these documents are available 
through the NRCSS website at www.safetyzone.org or through the 
Department of Education at www.ed.gov/pubs/edpubs.html. These two 
documents outline the need and process for schools to implement 
prevention, targeted intervention, and intensive intervention programs 
to support all youth in the school community. Additionally, these 
documents outline how to identify early warning signs and use these 
signs appropriately so as to not label or stigmatize children. These 
signs should be considered within the context of where they manifest 
themselves and used only to assist in providing necessary support and 
interventions for youth.
    Many schools have recognized the tremendous benefit of the school 
resource officer (SRO) on the entire school community. The role of a 
school resource officer varies greatly from state to state and from 
district to district. Schools often fail to realize the depth of 
involvement an SRO can have at a school. While many schools simply 
utilize their SRO as a law enforcer or to provide an authoritative 
presence, other schools are using these individuals in the classroom 
and in a variety of activities throughout the day. Schools that 
understand the need to provide many opportunities for their students to 
develop relationships with caring adults use these officers as another 
link to young people. Law enforcement agencies have experienced the 
benefit of having officers at the school and building relationships 
with young people that allows the police to better understand what is 
happening with youth in the community. Having law enforcement agencies 
and school districts design clear expectations for the role of the SRO 
and providing the necessary training to support the officer are crucial 
to successfully implementing an SRO program for the school.
    Recently technology and the role it can take in creating safer 
schools has become important. Software now exists that allows schools 
to track incidents, discipline referrals, and to organize these data 
for reporting to state and federal authorities.
    The use of tip lines and web access for students to report concerns 
anonymously allows students to share information without the fear of 
reprisals or being labeled as a snitch. A range of technological 
resources are available and include everything from key-card entry 
systems to security cameras and metal detectors. What schools must 
consider is selecting the least obtrusive use of these technologies so 
our schools remain encouraging and inviting places for our students to 
learn.
    In the aftermath of the school shootings that have galvanized our 
society and brought youth violence and school safety to the forefront 
of the political spectrum, many school districts and state legislatures 
have mistakenly viewed the development of crisis response plans as safe 
school plans. This misconception is widespread and it is dangerous. 
Many schools believe that by developing crisis response plans they have 
insulated themselves from incurring such an event. The fact is that a 
crisis response plan, while being a critical component of a 
comprehensive approach, does little to prevent such acts of violence. 
Rather, these plans ensure the coordinated response of the multiple 
agencies that will respond in the event of a crisis. Schools must work 
with local responders to plan for and practice the coordinated response 
necessary in the event of an emergency. Coordinating response 
procedures and protocols with local law enforcement, emergency 
management agencies, mental health providers, and families is essential 
to reducing the impact of a catastrophic event on youth and families.
    Finally, the importance of evaluation cannot be understated. 
Evaluation is a process that must be intricately connected to the needs 
assessment a school conducts in order that baseline data be compared 
from prior to this process through implementation and then used to 
revise and alter plans as necessary.
    Schools for years have simply implemented programs to address 
various concerns and assume that a positive effect has occurred. If 
schools desire to prevent youth violence and truly meet the needs of 
all children, schools must take a more aggressive and thoughtful 
approach to evaluating what impact they are having on the youth and 
families they are serving.

         EFFECTIVE STATE APPROACHES TO REDUCING YOUTH VIOLENCE

    Several states have taken proactive approaches to supporting 
schools working to reduce youth violence. Many state legislatures are 
mandating that schools develop safe school plans, including 
requirements that such plans go beyond simply developing crisis 
response plans that do little to prevent violence. States that 
understand the complexity of youth violence and the necessary steps 
required by schools to address such issues are designing legislation 
that requires collaboration among various state and community agencies 
and details expectations for school districts to gather data and base 
decisions on data driven information. Additionally, states that have 
recognized the complexity of these issues have designed legislation 
that allows for the formation of a state school safety center.
    These centers support school districts in the gathering and 
ordering of data, the development of school safety plans, and the 
training and technical assistance necessary to implement such plans 
successfully. Approximately fourteen states have provided funding for 
state school safety centers to assist school districts in the planning 
and implementation of comprehensive safe school plans.
    States that are working effectively to reduce school violence 
understand the need for schools to work beyond the development of 
crisis response plans and focus on the development of primary 
prevention plans that start in kindergarten and are reinforced across 
grade levels. These plans support the development of social skills that 
include conflict resolution, anger management, and the development of 
mutual respect among young people and adults. These plans also include 
the necessary targeted interventions and intensive interventions 
required by youth who exhibit the need for additional support.
    In conclusion, states that are working effectively to reduce youth 
violence understand the need to provide schools with technical 
assistance necessary to develop successful prevention and intervention 
strategies. Therefore, states are finding it necessary to fund state 
training and technical assistance centers to support schools in 
developing school safety plans.
    The fact remains, that while approximately fourteen states have 
state school safety centers, designed to provide the necessary training 
and technical assistance to districts working to prevent youth 
violence; thirty-six states remain isolated and dependent on the 
National Resource Center for Safe Schools and other organizations that 
have created school safety initiatives and resources. More states need 
to recognize the need of their local districts for training and 
technical assistance in school safety planning.

            EFFECTIVE LOCAL EFFORTS TO REDUCE YOUTH VIOLENCE

    Numerous school districts across the country understand the 
necessity to address youth violence comprehensively, despite the lack 
of support necessary to implement such plans effectively. Consequently, 
school districts are working desperately to develop school-community 
collaborations. Thanks to the funding made available recently through 
the Safe Schools/Healthy Students Initiative some school districts are 
working to involve multiple agencies in the process of safe school 
planning. The fact remains that schools cannot adequately meet the 
needs of the youth they serve without the support and coordination of 
local agencies and the technical assistance support of either a state 
school safety center, a university of higher education and the National 
Resource Center for Safe Schools.

[GRAPHIC] [TIFF OMITTED] T3138A.001

[GRAPHIC] [TIFF OMITTED] T3138A.002

    Senator Biden. I have a number of questions, but I am going 
to go down to Mr. Kleiman.

   STATEMENT OF BRYAN KLEIMAN, PRINCIPAL, MIAMI SPRINGS HIGH 
     SCHOOL, ON BEHALF OF THE YOUTH CRIME WATCH OF AMERICA

    Mr. Kleiman. Good morning. It is nice to be here. Thanks 
for inviting me.
    Senator Biden. Thank you for being here.
    Mr. Kleiman. It is very nice to be here. Your wife did a 
good job. We have people here that have actually been out in 
the field and are experiencing these things.
    Kids today are as good as they have ever been, and I would 
tell you perhaps better. This assertion could surprise some of 
my adult contemporaries, especially in light of some recent 
incidents around the country. Working closely with almost 4,000 
students daily, it is amazing what the youth of today are 
capable of accomplishing. Students regularly mount enormous 
food drives for the homeless, clothing drives for flood victims 
in Central America, collect blood for hospitals, raise money 
for United Way charities, volunteer in a variety of settings, 
and perform thousands of hours of community service. The youth 
in our communities are involved, vibrant, and eager to 
participate.
    I think the primary differential I see between the high 
school environment we as adults recall and the present are the 
nature of the challenges the youth of today confront. Many of 
these issues did not even exist when we were back in school. 
Many students today face enormous pressures, isolation, and the 
lack of the support network enjoyed by previous generations.
    I can tell you firsthand the quality of today's youth is 
unsurpassed. I think it is our job as adults to provide the 
environment conducive to their success. As you have heard from 
my colleagues, a safe and secure school is an absolute 
prerequisite.
    The primary concern of parents 10 or 20 years ago was 
academic progress. I think this has been replaced by a 
different concern. What I hear is, ``I want my child back in 
the same shape they left this morning.''
    I think an integrated approach is best. We have heard about 
incorporating technology training, logistics, and planning. I 
wanted to tell you a little bit about the cornerstone of our 
success, and that has been through the empowerment of our 
youth. We use a program called Youth Crime Watch. I think it is 
an elegant solution, and it is an attempt to go ahead and 
resolve some of the issues that our high schools especially are 
experiencing.
    It is premised upon the principle that students will rise 
to meet expectations, that if we provide them the ownership and 
empowerment, they will make better choices, and that students 
really do want a safe and secure environment. It is a proven 
program that has been exceptionally effective and it is cost 
neutral. Once established, it is virtually self-sustaining.
    It is a student-led organization that provides avenues for 
participation for every student, no matter what their academic 
level. It seamlessly integrates with existing violence and drug 
prevention programs and provides a unified platform for their 
coordination.
    At our school, we administer several drug and alcohol 
prevention programs, an antitobacco initiative called Teens 
Against Tobacco Use, TATU, peer mediation and counseling, a 
teen court, as well as violence prevention, awareness, and 
education under the Youth Crime Watch umbrella. This is in 
addition to the actual Youth Crime Watch organization and the 
Youth Crime Watch patrol.
    My own involvement with Youth Crime Watch began with my 
first administrative appointment as an assistant principal back 
in 1990 at G. Holmes Braddock Senior High School. That is in 
Miami, Florida. I was a member of the inaugural administrative 
team to open the school, which soon became the largest in the 
country with over 5,300 students.
    Senator Biden. Fifty-three-hundred in one school?
    Mr. Kleiman. Yes; it soon became apparent that far too many 
students were gang and drug involved and that we needed a 
mechanism for proactivity rather than reaction.
    After identifying a student with leadership abilities, we 
established a core group which was then trained in the Youth 
Crime Watch principles. The national office of Youth Crime 
Watch of America lent us support and provided start-up 
materials, manuals, information, and sent a consultant out to 
meet with the students and the staff and myself. The students 
elected their officers and their board members. Again, it is 
important to note this is a youth empowerment program. They 
elect their own officers. They pretty much set their own 
agenda, to a large extent.
    Senator Biden. For clarification, you started this in a 
single high school and you went from there, or was there 
already----
    Mr. Kleiman. There have been schools all over the country. 
I am just giving you my experience.
    Senator Biden. Got you. No, that is what I was trying to 
figure out.
    Mr. Kleiman. And I think, to me, that was important that 
you know I have been through this.
    Senator Biden. Yes, that is important. I just want to make 
sure I understand.
    Mr. Kleiman. But they elect their own officers and board 
members, like some clubs do. An extended core group after that 
was formed and students were recruited to form what we call the 
Challenger Patrol. Staff was in-serviced at faculty meetings 
and students were informed through a variety of outlets. We had 
a school newspaper, a school TV station, and pep rallies.
    All facets of the school interface with the program. The 
school resource officer provided training and advice, 
especially in regard to the patrol. The student services 
department provided training in peer mediation as well as 
referrals into the program. The activities director provided 
guidance in establishing procedures and protocol and soon had a 
symbiotic relationship between the program and the existing 
clubs.
    The initial administrative cost was really minimal. It 
involved the purchase of radios, jackets, and some T-shirts. 
This seed money from that point forward was pretty much self-
sustaining. To this day, they are doing their own fundraising.
    The patrol was trained and organized and immediately began 
to pay dividends beyond my wildest and boldest expectations. 
Equipped with radios and deployed throughout the building, 
their effect was immediate. Teachers and students were both 
gratified to see the faculty and student parking lots better 
patrolled. The security monitors that we had, always in very 
short supply, were more effective and their span of control 
increased, as well as their range of operation. Maintenance and 
custodial services experienced a virtual rebirth as they were 
not devoting the bulk of theirresources to graffiti eradication 
and vandalism.
    Student and teacher spirit and morale rose markedly as 
pride in the building, the school, and the facility returned. 
Crime Watch even held its own pep rallies and over 95 percent 
took the anticrime and drug-free pledge.
    About the same time as we had the increased patrol 
activity, we had some positive budget outcomes which we really 
had not forecast. Fewer part-time security hours were 
necessary, which saved money not only in the school-based 
budgeting but also saved money in internal funds that the clubs 
were raising for themselves. The patrols would return and 
facilitate evening events, both for the school, for example, 
Senior Night, as well as club events where sponsors found the 
patrols and effective way to reduce expenditures.
    It had an academic impact, as well. In order to feed 5,300 
students, it was necessary to schedule three lunches, each of 
approximately 1,750 students. Lunch periods began at 10:40 a.m. 
in the morning and ended at 1:25 p.m. So you had 3,500 students 
in class while another 1,750 were eating for several hours. 
This necessitated sequestering the 1,750 students and isolating 
them from the other 3,500. Those 3,500 deserve an environment 
conducive to learning. Any teacher will tell you that, and any 
kid can tell you that.
    Previously, this had been an almost insurmountable task 
because of the number of security monitors available, but once 
we had the patrols on board, it became the norm. Teachers and 
students were both extremely appreciative, and it should be 
noted that at my present school, with almost 4,000 students, we 
were able to convert to a closed campus lunch situation as well 
as feed all the students in a single extended lunch period. 
That has a lot of advantages. This would not have been possible 
without the aid of our patrols that are out there every day 
working lunch. The nice thing with one lunch period is you do 
not have the issues anymore of, well, I want to cut and go to 
the other lunch to be with my boyfriend or girlfriend. Closing 
the campus obviously was a major safety item. The local police, 
the community, the mayor, everybody is much happier, and the 
kids are much happier.
    As an operational issue, the decrease in all types of 
incidences was astonishing. I, myself, when the data came back 
from our management information systems, did not believe it and 
told them they had better run it again. The mere presence of 
those patrols, the extra eyes and ears, obviated a lot of 
behavior. In addition, the Youth Crime Watch program began to 
yield a great deal of advance warning. By having a 
representative cross-section of the student body, every student 
in the school knew somebody in the program. Quite often, 
security and administration would be there at the stairwell 
before the participants for the scheduled fight arrived, or the 
Youth Crime Watch peer mediators or counselors had already 
intervened and there was no fight.
    One of the more, I think, remarkable corollary effects of 
the program has been in advancing equity and access and dropout 
prevention. Every school has its star athletes, its musicians, 
their academic achievers, and they garner a lot of recognition 
and awards and attention. What I like most about this program 
is it provides a vehicle for all students, exclusive of any 
extraordinary talent or skill. All you need for entry into the 
program is a desire to improve your school and your own 
environment.
    Senator Biden. Sorry to interrupt you.
    Mr. Kleiman. Sure.
    Senator Biden. Could you give us a sense, in a school of 
7,000, in a school of 4,000, how many students are on this 
safety patrol or whatever you call it? How many students are in 
this group?
    Mr. Kleiman. The patrol, probably 130.
    Senator Biden. Thank you.
    Mr. Kleiman. The extended core group, probably closer to 
350, and the overall----
    Senator Biden. A cadre of 350, at any one time 130 are what 
you would need?
    Mr. Kleiman. Not all patrol. There is a waiting list for 
that.
    Senator Biden. Got you.
    Mr. Kleiman. And for the Crime Watch itself, we have over 
3,600. And again, I think the star athlete, the artist, the 
musician, the kids involved in all sorts of different things, 
they get a lot of that recognition. What we have found over the 
years has been that a lot of our ESE students, our Exceptional 
Student Education students, and our ESOL students, English for 
Speakers of Other Languages, a lot of kids that did not have an 
avenue for a lot of participation now find an identity and have 
really blossomed through their association with the program, 
because they just want to be a good citizen and want to make 
their school better and that is all it requires. So it gives 
them a real means to contribute. I have had several former gang 
members not only contribute but ascend to leadership positions. 
I personally think it is an outstanding program.
    Our success at Braddock was meteoric. The school was 
recognized by the U.S. Department of Education and the U.S. 
Department of Justice with a National Safe and Drug Free 
Recognition Award. Miami Springs Senior High, after only two 
years, was named a National Model Safe School. So we know the 
program works.
    It is an integral part, though, I would add, as they have 
already said, it is an integral part of a comprehensive 
approach, but it does serve to enhance the other facets. At the 
school I am at now, we have added technology in the form of 
surveillance cameras and computer encoded identification 
badges. In addition, we have secured the perimeter of the 
facility.
    Senator Biden. Every student has an ID badge?
    Mr. Kleiman. Every one. We can even take attendance with 
them and print out tardy passes and all sorts of things, which 
we do.
    Mr. Spence. Sir, may I just interrupt you for a second?
    Mr. Kleiman. Yes.
    Mr. Spence. When you talk about surveillance cameras, how 
are they utilized, on the perimeter, inside the school? Are 
they used in the classroom?
    Mr. Kleiman. Not in the classrooms, no. We now have 43 
cameras active. We have every stairwell, every hallway, every 
approach to the building.
    Mr. Spence. I just wondered why--Senator, I do not mean to 
interrupt you----
    Senator Biden. No, go ahead.
    Mr. Spence [continuing]. Because we have got probably the 
finest teachers in the country right here in Delaware, but when 
an activity starts within the classroom, a disruption 
orwhatever, we utilize video cameras on the buses, which have been 
very, very helpful to identify the bullies on the school buses. 
Unfortunately, we do not have enough cameras on the school buses. I 
think kids are pretty smart to know that some of the school buses have 
them, some do not.
    But I always wondered why a video camera would not be 
utilized in a classroom if, in fact, say a teacher identifies a 
student who is a continual problem in the classroom, as we do 
on the school bus. If there is a bully on the school bus, we 
utilize a video camera, and if an incident occurs, you can 
utilize this. It has been used in court to identify some kids 
that started trouble on school buses. I always wondered why we 
could not work with the school teachers at their okay or 
approval to utilize in a classroom to identify a student whose 
parent says, ``Not my Johnny or Mary. They would not do that.'' 
I always wondered why.
    Mr. Kleiman. You know, it is interesting. I have never 
actually had that. We have 200-and-something teachers and not 
one of them has ever asked for that. We have the capability to 
do that.
    Mr. Spence. Just recognizing a kid in a classroom 
continuing disturbing a class----
    Mr. Kleiman. I think, administratively--I will speak for 
myself on this, but I think, administratively, we have some 
outstanding people all over the country and certainly here. 
Programs do not teach kids, teachers teach kids and they need 
to be supported. So my teachers do not need a camera, they just 
need to talk to us and let us know and we will intervene.
    Senator Biden. One more follow-up on this subject and then 
we will let you finish, and then we will come back and ask 
everybody questions.
    Ms. Connor. On the surveillance cameras, what kind of a 
tech center do you have that mans that? Are they on during 
school hours and is there a person that is there and is it a 
flip button----
    Mr. Kleiman. I have a security person that sits with the 
cameras----
    Ms. Connor. In addition to the resource officer? Do you 
have one of those in your building also?
    Mr. Kleiman. Yes; the resource officer, I would not waste 
their time watching cameras.
    Ms. Connor. You bet. Thank you.
    Mr. Kleiman. They need to be with the kids. But no, I have 
somebody that monitors the cameras and whenever they spot 
something, they hit--it is a one-button zoom and they get on 
the radio and that is how we work it.
    Ms. Connor. OK; thank you.
    Mr. Kleiman. The last thing I will just mention is I think 
you have to take an integrated approach. All the measures that 
we have talked about become exponentially more effective when 
they are coordinated with a high visibility, high awareness, 
active administration, a committed, involved faculty. The 
administration must set the tone and actively support safety 
and security and promote vigilance among all staff. In our 
case, our business partners and our PTSA play an active role 
both with our Crime Watch and the operation of the school and 
they contribute financially to our efforts.
    A safe school starts always with the principal and extends 
from the administration to the staff. It involves the community 
and should reach out to every student. I think only through a 
collaborative effort of all the parties involved and mutual 
support, then the sum will be greater than the part.
    Senator Biden. Thank you very much.
    [The prepared statement of Mr. Kleiman follows:]

                  Prepared Statement of Bryan Kleiman

    ``Kids today are as good as they have ever been, perhaps better!'' 
this assertion may surprise a number of my adult contemporaries, 
especially in light of some recent incidents around the country. 
Working closely withal most 4,000 students daily, it is amazing what 
the youth of today are capable of accomplishing. Students regularly 
mount enormous food drives for the homeless, clothing drives for flood 
victims in Central America, collect blood for hospitals, raise money 
for United Way charities, volunteer in veteran's hospitals and nursing 
homes, and unceasingly spend time performing a myriad of community 
service. The youth in our communities are involved, vibrant, and eager 
to participate. The primary differential between the high school 
environment we as adults recall and the present is the nature of the 
challenges the youth of today confront. Many of these issues, such as 
H.I.V., did not even exist when we were in school. Many students today 
face enormous pressures, isolation, and lack of the support network 
mechanisms enjoyed by previous generations. I can tell you firsthand 
that the quality of today's youth is unsurpassed; it is our job as 
adults to provide an environment conducive to success. A safe and 
secure school is an absolute prerequisite. The primary concern of 
parents 20 years ago was academic progress; this has been replaced by a 
different concern--I want my child back in the same shape they left 
this morning. An integrated approach is best, incorporating technology, 
training, logistics, and planning. The cornerstone of our success, 
however, has been accomplished through the empowerment of our youth 
through a program known as Youth Crime Watch. It is truly an elegant 
solution. Youth Crime Watch is premised upon the principal that 
students will rise to meet expectations, that provided ownership and 
empowerment they will make better choices, and that students want a 
safe and secure environment. It is a proven program that has been 
exceptionally effective, and is cost neutral. Once established it is 
virtually self-sustaining.
    Youth Crime Watch is a student led organization that provides 
avenues for participation for every student, no matter what their 
academic level. It seamlessly integrates with existing violence and 
drug prevention programs, and provides a unified platform for their 
coordination. At our school we administer several drug and alcohol 
prevention programs, an anti-tobacco initiative, peer mediation and 
counseling, a teen court, as well as violence preventionawareness and 
education under the Youth Crime Watch umbrella. This is in addition to 
the actual Youth Crime Watch organization and Youth Crime Watch Patrol.
    My involvement with Youth Crime Watch began with my first 
administrative appointment as an assistant principal in 1990 at G. 
Holmes Braddock High School in Miami, Florida. I was a member of the 
inaugural administrative team to open the school, which soon became the 
largest in the country with over 5,300 students. It soon became 
apparent that far too many students were gang and drug involved, and 
that a mechanism for proactivity rather than reaction was necessary. 
After identifying a student with leadership abilities we established a 
``core group'' which was trained in Youth Crime Watch principles. Youth 
Crime Watch of America lent outstanding support, providing excellent 
start-up materials, manuals, and information as well as sending a 
consultant to meet with the students and staff. The students elected 
their officers and board members; an extended core group was formed 
with students recruited to form a Youth Crime Watch ``Challenger 
Patrol.'' Staff was inserviced at faculty meetings and students 
informed through a variety of outlets, including the school TV station, 
announcements, the school paper, and pep rallies. All facets of the 
school interfaced with the program. The school resource officer 
provided training and advice, especially in regard to the Patrol. The 
student services department provided training in peer mediation as well 
as referrals into the program. The activities director provided 
guidance in establishing procedures and protocol, and soon formed a 
symbiotic relationship between the program and existing clubs. The 
initial administrative cost was minimal, and involved the purchase of 
radios, jackets, and shirts. This was seed money, the unit from that 
point forward was self-sustaining. The Patrol was trained and 
organized, and immediately began to pay dividends beyond our wildest 
expectations. Equipped with radios and deployed throughout the 
building, their effect was immediate. Teachers and students were both 
gratified to see the facility and student parking lots patrolled. 
Security monitors, always in short supply, were more effective as their 
span of control increased, as well as their range of operation. 
Maintenance and custodial services experienced almost a rebirth, as 
they were not devoting the bulk of their resources in graffiti 
eradication and vandalism. Student and teacher spirit and morale rose 
markedly as pride in the building, school, and facility returned; Crime 
Watch even held its own pep rallies, and over 95% took the anti-crime 
and drug-free pledge. Concomitant with the increased Patrol activity 
came positive budget outcomes, fewer part-time security hours were 
necessary, which not only saved money in the school based budgeting 
system, but also saved money regarding internal funds. Patrols would 
return and facilitate evening events both for the school, for example 
Senator Night, as well as club events, where sponsors found the patrols 
effective and a way to reduce expenditures. The patrols had an academic 
impact as well; in order to feed 5,300 students it was necessary to 
schedule three lunches of approximately 1,750 students. Lunch periods 
began at 10:40 a.m. and ended at 1:25 p.m., with 3,500 students in 
class while the other 1,750 were eating. This necessitated sequestering 
the 1,750 students, isolating them from the 3,500 students that 
required an environment conducive to learning. This had previously been 
an almost insurmountable task, with the advent of the patrols it became 
the norm. Teachers and students were both extremely appreciative. It 
should be noted that at my present school with almost 4,000 students, 
we were able to convert to a closed campus lunch program as well as 
feed all the students in a single extended lunch period. This would not 
have been possible without the aid of the patrol. As an operational 
issue the decrease in incidents of all types was astonishing. The mere 
presence of the patrols, those extra eyes and ears, obviated much 
behavior. In addition, the Youth Crime Watch program began to yield a 
great deal of advance warning, by having a representative cross-section 
of the student body, every student knew someone in the program. Quite 
often security and administrative would be at the stairwell before the 
participants in the scheduled fight had arrived, or the Youth Crime 
Watch trained peer mediators or counselors had intervened to prevent 
the incident altogether.
    One of the more remarkable corollary effects of Youth Crime Watch 
has been its role in advancing equity, access, and dropout prevention. 
Every school has its star athletes, musicians, and academic achievers, 
all of whom garner recognition, awards, and attention. This program 
provides a vehicle for all students, exclusive of any extraordinary 
talents and skills. All you need for entry into the Crime Watch is a 
desire to improve your school and environment. Further movement, into 
the Patrol, Board Membership, or entryinto the Officer Corps, have 
grade and conduct thresholds, which prompts many into increased effort. 
We presently have a lengthy waiting list for Patrol entry. Many ESE 
(Exceptional Student Education) students, ESOL (English for Speakers of 
Other Languages) students, as well as students experiencing a variety 
of difficulties, have blossomed through their association with the 
program. It provides them with a means to contribute, an identity, and 
an opportunity to make a difference. Students truly appreciate our 
confidence and enjoy the responsibility. We have had several former 
gang members not only contribute but ascend to leadership positions. I 
personally find enormous gratification regarding this aspect.
    The success of the Youth Crime Watch program was meteoric, within 5 
years Braddock was recognized by the U.S. Department of Education and 
the U.S. Department of Justice with the National Safe and Drug Free 
School Recognition Award. Miami Springs Senior High School after only 2 
years was named a National Model Safe School by Youth Crime Watch of 
America at the National Crime Prevention Council/Youth Crime Watch of 
America annual conference.
    The Youth Crime Watch program is an integral part of a 
comprehensive approach and will serve to enhance other facets. At Miami 
Springs we have added technology in the form of surveillance cameras 
and computer encoded identification badges. In addition, we have 
secured the perimeter of the facility. These additional measures become 
exponentially more effective when coordinated with a high visibility, 
high awareness, active Youth Crime Watch and a committed, involved 
faculty and administration. The administration must set the tone, 
actively support safety and security, and promote vigilance among all 
staff members. Our business partners and PTSA play an active role in 
both the Crime Watch and the operation of the school, and contribute 
financially to our efforts. A safe school starts with the principal, 
extends from the administration to the staff, involves the community, 
and reaches out to every student. Through a collaborative effort and 
mutual support, the sum is then greater than the individual components.
    Bryan Kleiman is the principal of Miami Springs Senior High School, 
a school of almost 4,000 students located just north of Miami 
International airport. The student body is diverse and predominately 
minority in nature (over 92%); the school is larger than 12 school 
districts in the state of Florida. Bryan Kleiman is a 14-year veteran 
of the Miami-Dade County School system, and holds an MBA from a top- 
ten business school. After an administrative internship he interviewed 
and received his first appointment as a member of the inaugural 
administrative team to open G. Holmes Braddock Senior High School, the 
largest high school in the country with over 5,300 students. As an 
assistant principal he founded the Youth Crime Watch program along with 
the largest YCW Patrol in the country. The unit soon became an award 
winner, garnering both local and national honors. In 1994 he 
interviewed and gained entrance into the Executive Training program, 
and after serving as the intern principal at two Dade county schools in 
June of 1995 he became eligible for promotion to the principalship. He 
was promoted to the principalship of Neva King Cooper Specialized 
Educational Center in July of 1995, an ESE center. After serving there 
for two years he entered his present position, where his first act was 
to found a YCW chapter. The YCW chapter at Miami Springs Senior is one 
of the premier programs not only in Dade County but the country. The 
unit has been cited by the county organization as the top unit in Dade 
for 1998-99, and has been named a National Model Site by the National 
Crime Prevention Council/Youth Crime Watch of America. Mr. Kleiman has 
been instrumental in training activities to facilitate establishment of 
YCW chapters around the country. He has also been a very active member 
of the Miami-Dade County Public Schools administrative team, serving on 
numerous committees and advisory panels, and maintains an active role 
in his profession. Mr. Kleiman is the President of the Dade Association 
of School Administrators, the largest local professional association in 
the country. Of the various awards he has won he is most proud of being 
named the Citizen's Crime Watch Principal of the Year for 1998-99.

                       DISTRICT RESPONSIBILITIES

    Youth Crime Watch of America Executive Board.
    Superintendent's Safe Schools Task Force.
    Principal Perceiver Specialist.
    Superintendent's Schools of Choice Advisory Committee.
    District Teacher of the Year Task Force.
    M.A.P.P. & Management Selection Procedures Manual Revision 
Committee.
    Greater Miami Athletic Conference Executive Committee Member.
    T.A.D.S. Trainer.
    Fringe Benefits Council Representative.
    D.C.C. P.T.A. Executive Board Member.
    Governor's Performance Based Budgeting K-12 Task Force.
    District Senior High Principal's Liaison Group.
    Region III Senior High Principal Representative.
    P.A.C.E.S. Strategic Champion.
    District Student Services Technology Committee.
    Managerial Classification and Compensation Advisory Committee.

    Senator Biden. Corporal, we will be pleased to hear from 
you and then we will go back and open it up to questions.

 STATEMENT OF CORPORAL JEFF GILES, DELAWARE STATE POLICE, AND 
       SCHOOL RESOURCE OFFICER, WILLIAM PENN HIGH SCHOOL

    Corporal Giles. Thank you, Senator Biden, distinguished 
members. I was advised three minutes and it is pretty much 
exactly three minutes, so----
    Senator Biden. You can take as much time as you want.
    Corporal Giles. I am the SRO right now at William Penn for 
this year. We basically have just gone over the high school 
incidences. There has been a decrease in violent crimes, but 
there is still a problem with a lot of the criminal violations, 
such as disorderly conducts, criminal trespasses, and criminal 
trespasses are your students that have been suspended and are 
not supposed to be at school and they come back to school, or a 
lot of students that are not students, they just come to school 
looking for trouble. And basically, the effective preventive 
strategies we try to apply toward these instances.
    Early intervention is very important, working together with 
the student advisors in a proactive role. The student advisors, 
basically, at William Penn, there are two disciplinary student 
advisors, and my office is right next to theirs. We basically 
work together. So, basically, a lot of the students that come 
down for discipline, I get to meet, pretty much on a daily 
basis.
    Also, I do not wear the uniform at William Penn. I wear 
plain clothes. I am much more approachable. I do have a weapon 
and I get a lot of questions asked me about the gun. Of course, 
I say it is for their protection and it is not meant to alarm 
anybody. But I do not wear the uniform. Actually, today, I had 
a lot of students looking at me. ``What is going on, Mr. Giles? 
What is going on?'' They pretty much figured I probably was 
testifying.
    Opening effective communications with the students, it is 
easy to say but it is the one where you need to be available. 
It is difficult at times to be able to talk to all the students 
and recognize difficulties. A lot of the quiet students are the 
ones that you need to talk to, and just getting out in the 
hallways and meeting them and talking to them and finding them 
is the difficult part.
    You have got to build trust and confidence between the 
students and the SRO. Trust and confidence are two words that 
are pretty hard to basically measure, but that is just with 
communications and being open with them. They get to recognize 
you and get to talk to you.
    The importance of availability to the students and to 
parents, as well, is one thing I think needs to be mentioned. 
The parents have a very important part in this, and when I do 
talk to students about certain things or they come to me with 
their problems, the first thing is I tell them, let us call 
your parents up and advise them of what is going on here. Plus, 
it is better being proactive in that nature. Then the parents--
some parents do not trust the police at the school, and it is 
better for me when I talk to them early to alleviate some 
problems that we could have later on. So the parents are aware 
that their student is talking to me. It sort of opens up the 
communication.
    Some of the current programs that we have, I teach in the 
classroom, as a lot of our SRO's do. I personally instructed 
drug and alcohol awareness, laws of arrest, street safety, 
anger management. Anger management really seems to be what the 
students basically get a lot out of, just dealing sometimes 
with their anger and their temper. Getting into the classrooms. 
A lot of the students, I am not going to be able to meet and 
the only way to meet them is actually going into the classrooms 
and instructing.
    There is a Project Aware, where I take some students to a 
prison and it is sort of like a scared straight. A lot of 
times, I took 20 students, and it is sort of time consuming. It 
is hard to do this. I would like to do it more often, take more 
students, but it is hard because you take the students out of 
school for the day, but it has been advantageous.
    Camp Barnes, we take students down to Camp Barnes for some 
team building. You have got a lot of resources that we could 
use and Camp Barnes is great.
    Academy tour----
    Senator Biden. Camp Barnes, by the way, is a State Police 
camp for youth that has existed for a long time here in 
Delaware, in case you were wondering what Camp Barnes was.
    Corporal Giles. Academy tour--I have not done this yet, but 
I am going to be taking some students interested in law 
enforcement to the academy, and ones that are really not that 
interested in law enforcement, just take them to the academy 
and show them basically what a police academy is about. Again, 
that is breaking the barriers down so they can see really what 
police work is.
    The Trooper Youth Basketball League, we have every year. We 
have underprivileged children in the Youth Basketball League 
where the coaches are police officers, similar to the police 
athletic league, and we help out with the students there.
    And, basically, there is personally mentoring. I just 
started this. Basically, it is an assistant for the day. You 
take a student who is having a lot of troubles or a student who 
has really been angered and is angry and having difficulties at 
school and I basically take them for the day. In this one 
instance I had, I took the student with me over to George Reed 
because they had a problem at George Reed and the 
administration at the school said fine. So he went over to 
George Reed and was my assistant for the day, and he really 
enjoyed it and he actually comes to my office all the time and 
sees me and it has really helped him out with his problems.
    Again, breaking the barriers for the students and parents 
to view police in a positive way and develop trust and 
confidence is the main goal in crime prevention. Time and 
availability are the needed requirements. Open effective 
communication has decreased the number of criminal violations, 
but there is no way to measure this. Basically, I know speaking 
for all the SROs, I believe that the early intervention and 
talking to the students has helped decrease it, but we cannot 
really put a number on it. It is hard to measure. We just keep 
moving along and trying to keep developing this program.
    Senator Biden. Thank you, Corporal.
    I will tell you now, one of the things that I have in mind, 
and this is an official hearing of the Senate Judiciary 
Committee and they are going to be amazed and pleased that I 
have increased the membership of the committee in the United 
States Senate----[Laughter.]
    And maybe we will all learn something in return from this--
--
    Ms. Connor. Do we get your salary? [Laughter.]
    Senator Biden. No, you do not get my salary or my staff, 
and you do not have to go to Washington every day, either. But 
all kidding aside, one of the things that I can tell you now, 
Corporal, that I am going to be asking to do when the school 
year ends is ask to meet with all the school resource officers, 
all of you at once, unofficially, to have a long breakfast with 
me or spend the morning with me and just talk to me about 
practically how this is working and how it can work so we can 
get through all the formality of this.
    I am going to begin with some questions and then I am going 
to open it up. Senators tend to be Senators, so I am going to 
recognize the Senator first, even though the Speaker is here, 
and then ask anyone who wishes to ask questions to do that 
because, again, this will be instructive to the full committee 
in the Senate because of the perspective my colleagues bring to 
this, as well.
    I also would like to ask unanimous consent, and since I am 
running the hearing, it will be granted--it used to be in the 
old days, I was chairman of this committee for 16 years. Now I 
have been a ranking member for four. Ranking member is a 
euphemism for having no power, and that is why I like holding 
these hearings.
    At any rate, Dr. Meney has a statement for the record that 
I would like to put at the end of Corporal Giles' statement 
prior to my interruption for questions.
    Senator Biden. Let me begin, and although I may direct a 
question to one of you, anyone who wishes to respond, I would 
appreciate your input, and I will limit myself to a ten-minute 
round here and then yield to my colleagues and then if I have 
more questions, come on back.
    First of all, one of the things that I would like to get a 
sense of in your collective experience is are there any 
similarities that can be drawn from your experiences around the 
country? Let me explain what I mean by that.
    Is it an axiom that where there is--I am making this up, 
but where there is a good teacher-administration relationship, 
that you have better prospects for coordination of whatever 
program you are putting in place?
    Is there where there is more direct parental involvement? 
Quite honestly, we did not talk much about parents' involvement 
in this whole process, where you actually reach out, where the 
schools reach out into the community, and not just in a parent-
teacher meeting but hold literally meetings where they say, we 
want to discuss trouble or violence or concerns you have about 
safety in the schools and actually have meetings, whether they 
are after school or evening meetings.
    Or is there any correlation between school size and 
difficulty? My mother would say to you, Bryan, no purgatory for 
you, son, straight to heaven, with a school of 7,000 people. 
But again, all of us who hold public office, some know more 
about some areas than others, but we all are a little bit like 
that joke they tell about the Texan who said, ``I do not know 
much about art, but I know what I like.''
    When I was a local official or county councilman, which is 
a more difficult job than the one I had now, in 1970, I was one 
of the few people in public office who was against 
consolidating our schools. I did not want consolidated school 
districts. I thought they were a gigantic mistake, born out of 
a prejudiced view, not out of a view that I was particularly 
informed. I was a lawyer. I was not an educator.
    But I believe that if you have four schools making up 500 
in each high school, you have 55 kids who started a football 
team instead of 11. You have 50 cheerleaders instead of ten, 
and so on and so forth. I realize they are slightly more 
costly, but given the choice of having all the best teachers in 
one school or five great administrators and mediocre teachers 
in a smaller school, I would take five great administrators and 
mediocre teachers in a smaller school than I would the best 
teachers, not a so hot administrator in a large school. That is 
a prejudice I have. I cannot sustain that.
    So that is why I want to ask, are there any similarities? 
If you take a look at the schools that have had the most 
serious difficulty, they have not been schools the average 
person would have thought of--hardly any black kids involved, 
hardly any Hispanic kids involved in all of these. Can you 
imagine what the country would have done if Columbine was a 
group of black kids wearing dashikis and wearing baggy clothes? 
There would be race riots in America. We would be calling for 
all these broad solutions. Paducah, Kentucky, there were not 
any Hispanic kids, there were not any black kids. These are not 
schools that are having these celebrated problems that are 
coming from the inner-city ghettoes.
    What is the deal? What is the deal? How come? Even though 
we are talking about--I think if you asked the press and you 
asked us where you would pick the most violent schools, we 
would not have picked Columbine. We would not have picked 
Paducah. You would not have picked the schools where most of 
these things occurred. We would all have our candidates, again, 
reflecting a different kind of prejudice, in my opinion.
    And so my question is, are there any broad similarities 
that require sort of a platform from which you have to start 
for success? Do they relate to school size? Do they relate to 
teacher-student ratios? Are there any of those kind of indicia 
that would indicate you are more likely or lesslikely to be 
able to successfully build programs that diminish violence in schools? 
Anyone can answer.
    Ms. Riley. Yes, Senator, we have a list, some of those 
characteristics that we can point to, and in some cases, they 
do not all fall into place, but for the most part. If we look 
at schools that focus on academic achievement, schools that 
focus on knowing the students and caring for the students. So 
it is not enough just to say----
    Senator Biden. What does that mean, though? What is knowing 
the----
    Ms. Riley. Kids that do not fall through the cracks, that 
there are provisions made within the school to make sure that 
problems are identified early and that there are treatments and 
support for students that need help so that they do not fall 
through the cracks. So known and cared for.
    Schools that involve families in meaningful ways, and this 
is so difficult, and we have not really talked about parents 
that much, but over and over again, I do not care where, what 
group, how do we involve parents more? It is a really tough 
question, and especially for policy makers. Should we, can we 
legislate good parenting? Those issues come up over and over 
again as far as, yes, parents need to be more involved in the 
educational lives of their children. Schools need to reach out 
to parents and bring them more into the education setting. But 
these are real difficult. Educators know that we get good 
parents in here that help the children. It is very difficult to 
get the parents that we really need to talk to as far as the 
students that are having the problems.
    Links to the community, that is a characteristic that has 
been identified for safer environments for learning.
    Positive relationships among students and staff----
    Senator Biden. Now look, with all due respect, you are 
beginning to sound like the State Department. [Laughter.]
    The average person out there does not buy any of this 
stuff. Let us be honest with them. They do not know what 
positive relationships mean. What do they mean? What 
specifically are you talking about? You can testify in a 
minute. Let me get their answers and then I will be happy to 
have you. What do you mean? Give me an example of a positive 
relationship. Is it one where the teachers are calling the 
parents a lot? I mean, what does that mean?
    Ms. Riley. Relationships that are built on respect, that 
consequences for actions are followed through on. There is 
consistency, there is fairness that is viewed on the part of 
both teachers and students.
    Senator Biden. Jon.
    Mr. Yeakey. Some of the things that Dr. Riley is listing 
right there comes from a document that comes out of the State 
Department of Education, the U.S. Department of Education, 
``Early Warning, Timely Response,'' and I do not know how many 
folks in this room have seen that guide, but it is a very good 
guide, but unfortunately, a lot of people like you looked at it 
and said, well, these are great things, but how do you actually 
do any of these things?
    I think making meaningful connections and involving parents 
in meaningful ways means that the schools have to go out of 
their way to get in touch with parents. Right now, a lot of 
schools say, well, we did our best. We held a PTA meeting and 
nobody came. Well, we invited our parents in the newsletter and 
nobody came. We shared our discipline policy when we sent home 
the parent-student handbook, but the parents still call and get 
upset when we discipline their child.
    Those are copouts, to be honest, on the school district's 
part, of not going above and beyond the call to get the word 
out to parents, and that means calling every parent 
individually and making sure somebody at the school, being a 
teacher--most successful schools out there are dividing up 
their student population by teacher and they are having every 
teacher contact certain parents.
    Senator Biden. And that is what I am talking about. That is 
what I am talking about.
    Mr. Yeakey. Yes. Teachers are getting on the phone to 
parents and talking to them directly and saying, ``I am a 
teacher here at your son or daughter's school. Here are some of 
the things we are doing. I would like you to come down to this 
meeting, but if you cannot, let me tell you about some of the 
things we are going to talk about. I want to make sure you are 
clear about our expectations as a school, what we want to have 
parents know.''
    Senator Biden. How about just calling a parent? One of the 
things we did in the Violence Against Women legislation is we 
passed this legislation all in great meaning and I found I got 
home here and not a lot was happening. So I called all the 
doctors together and I said, look, at the hospital when a woman 
comes in and she says she ran into the door for the fourth time 
and you know that did not happen, what do you do? What is the 
problem? They said, well, we cannot get involved.
    So with the help of the legislature and the governor, what 
we did is we put someone in every emergency room, a volunteer 
who sat there, and we gave a specific name, a specific officer, 
a specific person, and they said to that person, we said to 
that woman as she got off the table after the D&C, God forbid, 
as she got out of the room after being stitched and they said, 
now, look, before you leave, here is Officer Jeff Giles and 
there is a district attorney named, in this case we call him an 
attorney general, so an attorney general named John Jones, and 
here is Mary Wilson who is right here and she is from the rape 
crisis center.
    We can right now get you in a squad car, take you directly 
to your home. There will be a policeman with you. We will allow 
you to pick up your material, your kids, what you need. We will 
take you to a safe place. We will then, when you go to court, 
we train the person, when you walk into court, that when you 
are a resource officer you say, what is it? What is the 
problem? He did what to you? We train that person to say, now, 
if you want to tell me what it is, come on over here and we can 
do this quietly. We link all the little things, because all the 
little things matter.
    None of what we are talking about now, not enough of what 
we are talking about now are the little things. What I am 
looking for is what are the little things? Are there places 
where schools that say, here is what we are going to do. We are 
going to sit down. We have got a problem in the school.
    What I would do if I were a principal, and thank God I am 
not a principal, I would get every teacher and say, look, we 
are dividing the school up here based on every person. You have 
got the following 50 or 100 students to call overthe next month 
and here is what I would like you to do. Call them up and not tell them 
what our policy is. Ask them what they think is wrong. What does your 
kid say when he comes home? Promise them anonymity. Promise them 
anonymity. What is your kid afraid of? What is your kid concerned 
about? Where is it? Write it down.
    I mean, those seem to me very basic, practical things that 
may--and so they are the kinds of things I am looking for you 
to tell me about. Is there any relationship between outlawing 
beepers in school and a reduction in drug traffic? Tell me some 
of those things.
    Mr. Kleiman. I will tell you a couple of things that we 
will do. One is, I will give you an example I think made a very 
good point. The kids need to know that people at that school 
care about them. That is absolutely vital. And even with all 
the thousands of kids we have, every morning from 6:30 a.m. to 
10:30 a.m., the kids know they have got a place, and if there 
is a parent, a legislator, somebody from downtown, some big 
muckety-muck from the district office, everybody waits until 
every kid gets seen. So they know they have got a place to go 
directly in and have their voice heard. And the assistant 
principals and counselors also come. The kids need to have 
access.
    Senator Biden. I can hear every parent saying, when you 
said that you have this sort of safety patrol, you know the 
first thing that came to my mind? I went to Catholic school, 
grade school, and there used to be crossing guards and they did 
not have--there were not enough police officers for crossing 
guards so they actually had a safety patrol. You wore those 
little badges, you know those white things with a badge on 
them, and you had every kid on a bus. I will never forget 
coming home and telling my father I was going to turn in my 
sister. He said, ``You do, do not come home.'' But that is a 
different mentality.
    But, literally, you did not have cameras on the bus. You 
had safety patrols. You had a kid sitting on the bus who was 
elected or picked by the school and he or she sat there on the 
school bus, grades one through eight, and was the one 
responsible for--now, that is one thing.
    I can hear my mother saying, and she is 83 years old, ``You 
mean to tell me my granddaughter is going to be in this school 
where there is a gang and she is going to be with a radio 
walking around in a parking lot turning in somebody who is 
breaking into a car? Give me a break, Joey. I am not doing 
that.''
    Explain to me how you integrate, and this is my last 
question and I will yield, explain to me how you integrate the 
obvious incredible benefit you have derived from this, not just 
single initiative, it was layered as you said, there are other 
things going on in the school, as well, along the lines of what 
the other two witnesses were talking about, but how you got the 
students to agree to participate in the student patrol or 
whatever the terminology is and at the same time dealt with 
their safety so that you did not find yourself hanging out 
there?
    And were these kids the popular kids or were they the 
geeks? Were they the kids other kids would say were the geeks? 
I mean, what kind of kid was successful? Tell me a little bit 
about the nitty-gritty practical problems of setting one of 
these patrols in place, especially in the school that is in a, 
not overwhelmingly rough, but relatively rough community.
    Mr. Kleiman. First of all, I will tell you, in all these 
years, and it has been almost ten years now, we have not had 
any kind of an incident that you are----
    Senator Biden. I am not suggesting you do. I am suggesting 
what other people are hearing.
    Mr. Kleiman. I will tell you, first and foremost are school 
resource officers who are deeply involved in training in 
nonconfrontational techniques. Students are never placed in the 
kind of precarious position that--we would not do that, 
primarily----
    Senator Biden. Give me an example. If a student is 
patrolling the parking lot----
    Mr. Kleiman. I will give you an example. During that lunch 
break where you have got 3,500 students to keep separated from 
another 1,800 that are having lunch and it needs to be quiet, 
all they have to do--first of all, they are equipped with 
radios. They are sent out in pairs. And basically, all they 
have to do is stand by a door and make sure that nobody is 
going through it. There is not really an active--they are not 
security monitors.
    Senator Biden. The kid goes to go through the door.
    Mr. Kleiman. They check for a pass.
    Senator Biden. And the kid says, ``Give me a break----''
    Mr. Kleiman. Then they are trained to step aside.
    Senator Biden. Good. That is what----
    Mr. Kleiman. They get on the radio and they inform one of 
us and then we--they are not going to outrun the radio signal.
    Senator Biden. That is the practical point I trying to get 
across. I do not want the impression left that these kids are--
--
    Mr. Kleiman. They are not acting as police officers or 
monitors. They are just eyes and ears.
    Senator Biden. I think it is a good idea.
    Mr. Kleiman. And they really, just their mere presence is a 
deterrent because they have the radios.
    Senator Biden. What happens after school? I grew up in 
Claymont. I can think of a couple neighborhoods not too far 
from here that if you, in fact, got on the radio and said, 
``Johnny Sisson just went through the door''--remember him? A 
hell of an athlete. [Laughter.]
    I might find myself up in Wharfline, which was an area 
where--I might find myself having to demonstrate my physical 
prowess or lack thereof for having clicked the radio on and 
said, ``So-and-so just went through the door.''
    Mr. Kleiman. Well, I will tell you two things. One is they 
represent a true cross-section. They must. The heavy metal kids 
are in there. The kids with the blue hair are in there. The 
athletes are there. You name it, we have it, computer nerds, 
you name it.
    Senator Biden. So the kids with the blue hair----
    Mr. Kleiman. Across the board.
    Senator Biden [continuing]. They want to be part of this?
    Mr. Kleiman. Yes.
    Senator Biden. You must have done something pretty good to 
get kids wanting to participate in this, do you follow me? Is 
there any secret to that now?
    Mr. Kleiman. It is just what I said earlier. Programs do 
not teach kids, teachers teach kids. If you want this to work, 
you make sure you pick a dynamite person to go ahead and be the 
spark plug to start. And, you know, every schoolhas people that 
everything they touch turns to gold, and you have them and every school 
has them, and there are people that work well with the kids and then 
other kids want to be with it.
    Part of our success in terms of tips and crime prevention 
over the years, as I mentioned, we have been there at 
stairwells where fights were supposed to have happened and then 
had the kids arrive. By having a cross-section of the student 
body, everybody knows someone, and I do not care how ``bad'' a 
kid is, somebody out there cares about them. Somebody out there 
does not want to see something happen to them. So somebody will 
let us know. It is not to be a snitch. It is not to be nasty 
about it or malicious. Somebody will come up and say, you know, 
I do not really want my friend to be thrown out of school. This 
is what they are up to. Do something about it.
    Senator Biden. A number of times I got whipped, I wish 
somebody had looked out for me and there would have been a way 
out. Anyway, I should not be facetious. I am going to yield, 
then----
    Mr. Yeakey. Senator Biden, can I follow up for a second on 
a comment you made?
    Senator Biden. Please.
    Mr. Yeakey. You were talking about the efforts you have 
made in the State to have a social worker in emergency rooms, 
and I think that is tremendous. That shows the kind of 
connection----
    Senator Biden. Actually, they are just volunteers. They are 
not even social workers.
    Mr. Yeakey. What a lot of States have been moving towards 
is getting teachers on the phone to talk to parents so they can 
talk about what is really important. Teachers, in a lot of 
cases, are scared to do that because they do not understand how 
to talk to parents or respond when parents share with them 
problems they are having. ``I do not know how to deal with my 
son, because to be honest, when his father starts yelling and 
screaming and hitting me,'' and teachers do not know how to 
respond to that or support parents effectively that way and a 
lot of schools do not have somebody that they automatically 
know to refer that parent to or get a community mental health 
or social worker in that community to support that parent or 
those kids.
    A lot of States are moving to tying funding for additional 
mental health workers to making sure that person gets based at 
the school. So if you are going to get additional mental health 
funding, a counselor, mental health counselor from the 
community, not just another school counselor that is going to 
be made to do administrative work like an assistant principal, 
but a community mental health professional is going to be at 
the school and have an office there and be there for an 
automatic referral for kids when they are identified as having 
an additional need or for parents when parents bring up issues 
or need additional assistance, because most schools do not have 
that kind of resource unless it is given to them.
    Senator Biden. One of the things----
    Mr. Kleiman. It is very effective. We have one on board.
    Senator Biden. Well, I lied. I will ask one more question. 
[Laughter.]
    One of the things that seems to work in private schools--
now, I want to make it clear, I am not one of those who thinks 
we should be funding public and private schools. I may be the 
only guy in this outfit who thinks that. But one of the things 
I have observed is in private schools in this State, and we 
have--I do not know if it is good or bad, but we have, I think, 
the largest percentage of students in private school of any 
State in the nation, if not the largest, very close, and in 
private schools, most of which are relatively expensive, 
mothers and father both work but they aggressively invite the 
parents to participate during the day in the school, 
aggressively, I mean aggressively in the three schools that I 
am familiar with, where they go out and they go to the parent 
and they press for them to take days off, they press for them 
to take their spare time and come and work in the library, to 
work in the lunch room, to work as monitors. I mean, it is 
amazing. It aggressively brings the parent into the classroom, 
working the stairwell, figuratively speaking.
    Do you have any experience with public school programs like 
that, where they aggressively go out and try to get the parent 
to be in the school, walking the halls, being in the lunch 
room, et cetera?
    Mr. Yeakey. That is extremely effective. There are some 
public schools out doing it and doing it in a variety of ways, 
having parent ambassadors on the buses, to travel on buses with 
kids to and from school and to every activity. The problem is, 
what you need is you need an administration and you need 
teachers that are committed to doing that because you can pay a 
lot of lip service, and a lot of public schools pay lip 
service, ``We really want to get parents involved,'' but the 
truth be told, a lot of teachers, and I am an ex-high school 
teacher, a lot of teachers would just as soon get the kids in 
the classroom and close the door and teach them for their 50 
minutes or 90 minutes.
    It is a little unnerving to have a person from the 
community, a parent, there who in their view is staring over 
their shoulder and could cause them trouble. You have got to 
break down that stereotype. We have got to get parents and 
teachers and administrators to be more supportive of that idea.
    Ms. Riley. There are many programs around the country. One 
of them I am thinking of is called POP's, Parents on Patrol, 
when dads actually come to school at lunchtime.
    Mr. Yeakey. Yes; we did that.
    Ms. Riley. So there are examples of that. And then the 
school carrying itself to the community, having a PTA meeting 
somewhere else other than the school, having it at a community 
center, a rec center, or a housing development in a community.
    Senator Biden. Thank you. Senator?
    Ms. Connor. Thank you, Senator. I just would like to share 
with you that I am a former teacher, and, as a matter of fact, 
right here in this district, and then a full-time mommy for 18 
years. The fun part for me was that I taught elementary music, 
so they liked coming to my topic. That was a fun kind of thing. 
But I have been a PTA officer a home mommy, went on the field 
trips when other parents could not go, even though my family 
members were not on the trip, because I thought it was vital to 
give them.
    And when I say PTA, so many people think of Parent-Teacher 
Association. I have never looked at it as that. To me, it was 
Parent-Teacher Administration, and you must have that 
partnership to make that work.
    This district has done a lot of good things right here 
where you are. They have done a lot of good things. One of the 
good things they did was when the funding came through for the 
resource officers. And if I recall correctly, this may have 
been one of the first districts in the State.
    Senator Biden. It was the first, the very first.
    Ms. Connor. And Kevin Semansky has done an incredible 
program that he ran. You have a very tough road to follow, 
young man, and I know you will do well.
    I am only wishing, and I was glad to read in the 
possibility of six more coming for our State with State Police 
support, and a couple months ago, many of us received letters 
from a downstate school district, Wake Forest, where their 
funding has run out. Their officer would be leaving them, and 
it was in mid-year. The wonderful part of it was the youth of 
the school put together fundraisers to retain this young man to 
stay with them. We all have wonderful youth, and many of them--
there are some that met you today that are here in this 
district, and I am fortunate that one of my children happens to 
be one of those good kids. They do have an impact on their 
student friends, and that word of mouth is a wonderful thing 
and we cannot put a price tag on that, what they do.
    And I know where Miami Springs School is in Miami. My 
mother lives in Key Biscayne, and I visit in that area quite 
often. It is an incredible uphill battle that you have overcome 
there, and I give you a lot of credit.
    My question is, we have a DARE program in our State that 
handles three, four, and five, third, fourth, and fifth 
graders. Now we get to a resource officer at William Penn High 
School. What are we doing at six, seven, and eight? It is the 
most disruptive time of their hormones and everything. We 
really have an upheaval there. We do not have anybody, to my 
knowledge, in the Colonial District or in any of the other 
districts on the junior high level.
    Now, you pointed out a statement, Jeff, and pardon me if I 
may call you by your first name, that you took your student 
with you to an incident that occurred at another school.
    Corporal Giles. Yes.
    Ms. Connor. How can we assist to get something on the 
junior high level that would help you?
    Corporal Giles. Yes; right now, I handle the incidents at 
William Penn plus incidents at the George Reed, and it is 
difficult. It would be a lot easier if I was just at William 
Penn or just at George Reed. We have another SRO who has three. 
He handles just three of the middle schools.
    Ms. Connor. OK.
    Corporal Giles. And it is difficult. It is just a manpower 
issue. We just do not have the availability of them. But I can 
say that we have just about as many incidences at George Reed 
that I am needed at that I am needed at William Penn.
    Ms. Connor. And the geographic, we have got Newcastle 
Middle, which is this side of the way, but then we have County 
Bedford, which is quite a few miles, and our district is 
relatively close. When you look at Christina, they have got 
Newark and then they have got their pocket within the City of 
Wilmington. So we all have this geographic situation as far as 
sharing officers. I would like to find out if there are ways 
that we can assist to help with that situation. That is one of 
the concerns I have. These officers then we can use, and I am 
going to look at our superintendent, we can use these resource 
officers at any particular level, not just at the high school, 
am I correct? All right.
    The size of the student body, we have got 2,300 at this 
high school. It is the largest high school in the State. Is 
there a way that we can do that per student body count, I mean, 
how we do classroom teachers? We do it on body count.
    So these are questions that I would like, if there is any 
way we can do, and in referring to parent involvement, you see 
that banner up there, ``Superstars in Education''? This school 
district received it for their teacher center Statewide 
program, and I happen to sit on that team that did the choosing 
of the outstanding programs. Downstate, we have a program where 
the school bus in August with the teachers on board go to visit 
the children that are going to come to that school. Every 
student that comes to visit--and it is publicized--that bus 
gets a T-shirt, ``I am a student at,'' and on the first day of 
school, they are asked to wear that shirt. Already, you have a 
partnership.
    I remember there was a former administrator in this 
district in June, July, and August made a personal visit to 
every student coming to his elementary school. Every teacher 
made a visit to that home. How can we, as classroom teachers--
and I will say we, because once you are, you are--how can we 
understand what our children are sitting at that desk if we 
have not walked where they live? It is vital. We give 
assignments to children that may not even have a pencil at 
home. We give a project for extra credit and do not supply what 
they need to do the project with.
    We have to be ever mindful of those situations, of what we 
do, and if we set the children up for failure, they will take 
it in an action because of their frustration, maybe on another 
student, maybe on the bus driver. That is their frustration. I 
cannot perform like that. I do not hold up to the other 
students. You always have parents that will be supportive if we 
go get them, and I think it has to be that, the partnership.
    Senator Biden. How practical is that?
    Ms. Connor. We will be looking for more money. [Laughter.]
    Mr. Kleiman. We do something kind of like that. This 
summer, for the third year, we will have all of our incoming 
ninth graders in for kind of like what they call in pro 
football a mini-camp. For us, we are so big it takes two full 
days, but the kids come in, a lot of their parents come with 
them, and we do it for the whole day. We get, out of 1,100 
ninth graders, you probably get 950 of them and a lot of 
parents.
    We give them a T-shirt that says ``Hawk Quest'' and they 
get a planner. They also get a book to read. It is over the 
summer. And we do a scavenger hunt so they are in the building. 
They meet faces. They meet teachers. They get their counselor. 
We set up schools within a school to try to personalize a very 
large environment. So they have contact.
    What I found is that they do not really have, that whole 
first month, the ninth graders do not have that ``caught in the 
headlights'' look. They actually know their way around the 
building. They know people they can connect with. They have met 
a bunch of their teachers. We set it up as like a school within 
a school for them and it has been very effective in keeping 
them in school and getting theparents there, because a lot of 
the parents will come with them and at that point we get them involved 
with the PTSA.
    So it is very effective. I wish we could do more in terms 
of getting out to the homes, as you mentioned, but with 1,100--
--
    Senator Biden. In terms of the resource officers, for the 
record, the legislation I wrote provides for--we have 102,000 
new police officers in the last five years nationwide. Of 
those, two years ago, they amended it providing for school 
resource officers. There are 2,639. I would point out for the 
record that over 40 States have surpluses. It is real easy, 
real easy. Instead of States talking about a tax cut, they 
could easily do what we did nationally. They could provide for 
more officers.
    So the idea that the Federal Government has a 
responsibility--I acted because States were not acting, and 
that is why I acted to provide for these officers. To be very 
blunt about it, the purpose of my doing that was, quite 
frankly, to embarrass the States so that the States would see 
how well this works and decide that with a significant surplus, 
for example, we have here in Delaware, Delaware could easily 
fund it. Why would Joe get more money, only to be told that Joe 
is a big spending liberal Democrat--not by anyone here--
providing this money and the States do not do it.
    So that is really an important piece here. Part of what we 
do federally is we only provide seven percent of all education 
money that there is. There is a national debate going on right 
now. And so through the Biden crime bill, you are funded--well, 
I do not know if you particularly are, but the badge usually is 
funded in the school. We are going to get six more for you here 
in the State of Delaware.
    But as I work, there are ways in which to do this by 
providing more badges, more sworn officers in that 
circumstance. But I say that, again, I mean that literally. 
Most people do not know. I mean, all the legislators know and 
we know, but most people do not know, nor should they have to 
worry about, who is ultimately paying for it. They are 
ultimately paying for it. They are the taxpayers. But we can 
probably use, I hear from around the country, we can probably 
use 30,000 school resource officers. That is why I have a new 
crime bill adding another 50,000 police officers over the next 
five years to be able to be used flexibly by States like this.
    Mr. Yeakey. I was just going to say, States are following 
the lead that the crime bill provided because South Carolina 
this year is phasing in middle school SROs for every middle 
school, and that is their State legislature said, if we are 
going to have one in every high school, then we are going to 
make sure we have one in every middle school this year.
    Senator Biden. Good. The Speaker has a previous engagement 
and I am going to let him go next.
    Mr. Spence. Thank you, Senator. I would like to thank you 
personally on behalf of all of the citizens that are here, 
teachers, parents, students, police officers. Thank you for 
allowing all of us to take part in your conference today 
because it is so important to all of us.
    I could say thank you to a lot of people out in the 
audience that have been involved for years--the administration 
here in the Columbus School District, the superintendent and 
assistant, president of the State Teachers Association. 
Everybody in this room has played a major role in the last ten 
years of passing legislation in Delaware to reduce, if you 
will, or address discipline and violent crime throughout our 
school system here in Delaware.
    I guess it has been 10 to 12 years ago, we passed 
legislation, House bill 85, for mandatory reporting of crimes 
to the local police agency as well as the Department of Public 
Instruction because there were really no data or statistics of 
what was happening throughout the school, and through the 
support of the superintendent and assistant and President of 
the board and many others, we were able to get and build a 
strong consensus on legislation that did exactly what we all 
wanted to do, and that is so we could bring focus and start to 
bring in some resources. At that time, we did talk about police 
officers in the public school system. I would not point out any 
particular administration, but they said it cost too much 
money. So our good friend, the Senator here, thank God for him 
and his legislative initiative that would bring about the kind 
of funding for police officers.
    Anyway, two quick questions. As I travel up and down the 
State as Speaker of the House and a former candidate for 
governor, many of the people and parents I spoke with and even 
students asked me the questions of a dress code, because the 
kids and their parents and their dress and all this. The 
parents seemed to be excited about it. The students' tennis 
shoes cost $200 and one parent cannot afford it. They disappear 
at the school when the kid gets down in gym or whatever might 
happen. It seems to create a problem with a lot of jewelry, a 
lot of fancy clothes.
    Most of the parents I have met with said, why do you in 
State government not do something about the dress code, not 
necessarily uniform, but an appearance or a dress code that 
means something to the kids. We have a charter school that has 
a dress code, very well accepted by the parents, the students. 
The kids are excited. They picked their colors and the whole 
thing. One question is, across the country, and it seems to be 
an important issue to parents and students, possibly about a 
dress code.
    The second thing is, discipline problems, from what I 
understand as a legislator and speaking with parents and 
students, sometimes or a lot of times are caused because of 
either a drug addiction or an alcohol problem, even at a very 
young age. Many of the States throughout the years, I have seen 
in legislative booklets or brochures, National Conference of 
State Legislators, a number of the States are addressing drug 
testing in the schools, whether it is student athletes or 
probable cause or whatever, not necessarily to arrest the kids 
but to identify the kids who have drug problems or alcohol 
problems at a young age and are causing a discipline disruption 
to try to bring focus, get them additional education, get the 
parents involved, reach out to them before it is too late and 
they become a dropout.
    Two questions on the national level, because Delaware has 
not done anything with the uniforms or our public schools or at 
least to address the appearance of the kids and the clothes 
that are worn to our public school system.
    The second one is, would you encourage us or give us what 
you feel is important as far as drug testing in our public 
school system to try to reach out to kids who already have drug 
and alcohol problems at a young age. Those are the two big 
things here in Delaware.
    Ms. Riley. I will start. Yes, I think the dress code issue 
is one that is being looked at around the country, especially 
because the school districts are looking at how do we make the 
place of school safe, and part of the physical environment is 
how everyone looks. There is absolutely contradictory research 
on it, however. There are school districts like Long Beach, 
California, where they can show you the statistics. We have put 
in uniforms, grades went up and behavior problems went down, 
and they attribute that to the dress code or school uniform 
situation. There is a difference between dress code and 
uniforms, which would be going all the way to requiring 
everyone to wear the same thing.
    But I think there are school districts and communities that 
are looking at it as a community issue. Let us make a decision 
locally to decide if we are going to, in fact, implement it. 
Many school districts, as I have seen across the country, are 
doing it first elementary, then middle, and they are leaving 
high school out right now simply because of high school and 
individualism and students who say, ``I have a right to wear 
what I want to wear.'' But it is certainly an issue that is 
being looked at around the country.
    Drugs and alcohol, that is one of the number one incidents 
that we see across the country in schools. In fact, 85 percent 
of crime incidents in schools fall under three categories: 
Possession of a weapon other than a firearm, because we see 
firearms there now; assaults; and substance abuse. So it is a 
very important issue.
    Mr. Yeakey. You asked about drug testing and trying to help 
identify kids early on and how you could guide them. That is a 
very sticky and very careful subject to approach, and I just 
was sitting around a dinner table with Bill Modulesky and 
Bernie James from Pepperdine University, who is a professor of 
law, and had that conversation, because since the decision with 
the kid from my home State, Oregon, this little tiny town, and 
they did their drug testing, they went all the way to the 
Supreme Court and got upheld. A lot of schools and districts 
are trying to interpret that very, very broadly and use drug 
testing in very, very broad ways. It is going to get school 
districts in trouble, not in the effect that they are going to 
be held, but they are going to get called on it and be forced 
to actually go to court and prove the merit and the right of 
the search and stuff to be able to test the kid.
    I think drug testing can be a really, really positive thing 
if it is done correctly, if you have a right purpose in mind 
for why you are doing it. Make sure you are clear and you 
communicate that to your parents and community as to why it is 
you are trying to do it, because it is a very, very testy 
subject. You have to be very, very careful about it. And you 
have to make sure that you are not just interpreting things 
broadly and trying to use that power so broadly to infringe on 
kids' rights and the family's rights.
    So just consider it. Look at a variety of avenues and look 
at a variety of places that have done it and look at the 
different ways they have tried to institute it so you can 
decide for yourself what exactly is the purpose of why you want 
to do the drug testing. What are you trying to do?
    Mr. Kleiman. Our district had a pilot. One of our board 
members brought it up and our district piloted it. Because of 
the legal issues, it was going to be, quote, ``voluntary,'' 
that a parent could do this on a voluntary basis with their 
student. We would test, and we had these locking boxes and then 
they would do pick up. It failed pretty miserably. The response 
was fairly poor and sporadic, just to let you know. I do not 
think it was well-conceived to start with, to tell you the 
truth.
    Senator Biden. It is fairly expensive, as well.
    Mr. Kleiman. Yes, and we already have intervention programs 
in place and we really did not have the--I do not think the 
homework was done as it should have been in order to effect it 
expeditiously so that a student really could be helped. It was 
more like a parent trying to turn a kid in.
    The dress code issue, I will make a comment on. And again, 
I think this varies. We hear things from all over the country. 
At the high schools, our district is still fishing for a high 
school to try the uniforms. We have had--we meet and our 
students have a voice in this on an educational excellence 
council that the PTA, the administration, the faculty, and the 
students all have a voice on. Some of the kids have actually 
asked for uniforms, not a lot of them, but some of them have 
asked for them.
    The one thing that we did, and remember the climate, I have 
been involved in a multiagency gang task force for many years 
and one of the changes at this school right away was we 
outlawed shorts for young men. That really helped, because if 
there was going to be a trespasser in our climate, they were 
going to be in shorts and the gang members usually have their 
mark down by their ankle, and so just right away, our incidence 
of trespassing went down.
    Mr. Yeakey. I think something else to consider around dress 
codes is also the fact that having a dress code or a dress 
expectation that is not, like was mentioned, is not a uniform 
necessarily, and a lot of places have gone to requiring minimum 
expectation for dress and also outlawing particular things, 
like drug paraphernalia. There are a lot of kids that want to 
wear the marijuana leaf on the shirt or the hat. They want to 
wear the Union Jack around as a sign of intolerance or 
intimidation. There are a lot of those things that you can 
really design dress codes to specifically address and make sure 
you protect kids' rights as well as make sure every kid feels 
safe and secure in the environment they are in at school.
    Mr. Spence. Can I just add one more quick thing and then I 
will yield to my colleagues. Some comments come from principals 
and administrators that deal out the punishment for kids and 
suspensions and expulsions and things. I keep hearing that from 
a Federal standpoint, and this is important for Senator Biden, 
I believe, and please, someone correct me if I am wrong, a lot 
of the schools who really are disruptive or cause major 
problems in the classroom or the schools, when they are caught 
and then there are consequences, the parent says, my son or 
daughter is a special aid student, so under a Federal law, that 
special aided student is treated totally differently from the 
regular population so that suspension or expulsion or whatever 
is dealt differently. So a lot of the parents, Senator, who 
have found out that if you are a special aid or considered a 
special aid student, your punishment is a lot less and it is 
totally different.
    I have had a number of school administrators suggest to me 
to meet with Senator Biden and Senator Roth and Congressman 
Castle to talk about the Federal role in tryingto make changes 
so that kids who are disruptive or a real serious behavior problem can 
no longer use that my son or daughter is special aid so you cannot 
suspend them or you cannot expel them, you have to treat them 
differently. Some of the administrators may want to mention that to 
you. I know that. I heard that across the State in many of the school 
districts.
    Senator Biden. Thank you.
    Mr. Kleiman. That might be something that is a State 
differential, because we have probably 500 special education 
students and they are held to the same code of student conduct 
as every other student. The only differential for us is that if 
it is a manifestation of their handicapping condition, then we 
make adjustments. I can just tell you what we do. It is 
probably a better idea nationally.
    Mr. Yeakey. That is a concern nationally among many people. 
Dr. Allen and I were on a conference call with those State 
centers we mentioned earlier and many of them are struggling 
with that exact issue because school districts are coming in 
and saying, we have got IEP students, students that are 504, 
and they are having behavior issues but by Federal law you 
cannot do some of the same kind of expulsion procedures or 
suspension procedures as you do other kids. That is something 
that is going to be visited, I think, federally at your level, 
Senator Biden.
    Senator Biden. That is not quite accurate, with all due 
respect. What it is, it requires the school district, they can 
take action in the school as long as they maintain concern for 
that special need. For example, if you have a child who has a 
serious attention problem, it falls under the category of 
Federal law that they have a demonstrable disability. The 
problem is, the States--I am not speaking about Delaware, as I 
do not know enough to know--but the States generically do not 
provide for alternatives for them other than the school that 
they are in.
    And so if you have a child with a serious disability who 
engages in a disruptive behavior because of that disability, 
literally a tic, their inability to keep their motion, to keep 
their head from moving, disrupting class, engaging in activity 
that in any other student would be viewed as disruptive, the 
State is required under the Federal law, they can take them out 
of that school but they must continue to give them education. 
That is where you all are unwilling--you generically, the 
State--to meet the long-term responsibility.
    So the issue is not whether or not they can be withdrawn 
from school, as the superintendent will tell you. It is whether 
or not there is a place you can withdraw them to to continue to 
educate them because of their identifiable disability. But it 
is an issue and it is something that we should meet with Mr. 
Speaker and maybe you can get some of those folks together and 
see whether or not there should be more the Federal Government 
should be doing or we should be interfacing with the States 
more in order to be able to provide an alternative. That is 
basically what it is.
    We are running short on time. I know you have got to go. 
Mike, and then I will close it with the coach.
    Mr. Mulrooney. This is a question for anybody. When we are 
talking about the teachers making the phone calls home to 
increase parental involvement, there is a opinion around in the 
Delaware General Assembly, everywhere just about, that teachers 
already have too much on their plate. We are just constantly 
lifting them up and lifting them up. How would you comment on 
that opinion, to get the teachers to do this, and would an idea 
be year-round schooling or longer school days? Have there been 
any studies on that, as to what effect that would have?
    Ms. Riley. Some States are adding extra workdays either at 
the beginning of the year--usually at the beginning of the 
year--so that teachers are paid for the time in doing this.
    Mr. Kleiman. Let me tell you, we try to take as much of the 
clerical duties teachers are involved in--for instance, we have 
gone to the ID cards with the bar codes. Instead of having to 
write out all this stuff, the tardy passes, the computer prints 
them out. I pay out of our school budget for a calling service. 
Every kid that is absent, and in a school this size it can get 
sizable, every parent gets called every day on every kid that 
is absent. So that relieves the teachers of just calling to 
just notify an absence. So now, hopefully, they will take that 
time and use it for things that are more productive.
    Mr. Mulrooney. But we were talking about calling just to 
say, we have this program available, we are having a meeting. 
That is not just----
    Mr. Kleiman. Well, we use the call-in service for that, as 
well.
    Ms. Riley. Like a reverse number.
    Mr. Mulrooney. And they will call three to five times a 
day. A human being makes contact in the home language and then 
the recording comes on for whatever it is, if it is an absence, 
a PTA meeting. So that is an attempt to free teachers to do 
that. It is still a lot for teachers to do.
    Mr. Mulrooney. That is what I was wondering. Is there any 
proof that year-round schooling is beneficial for the kids? 
Instead of maybe 9 weeks, have a week or two break. They are 
not on the streets in the summertime. Are there any studies on 
that, that that is beneficial or have effect at all or----
    Mr. Yeakey. There have actually been several studies on 
that and results really varied. People like to make statistics 
kind of say what they need them to say, and there are examples 
you can take from actual cultures that do that same kind of 
thing and the results you get will vary depending on what you 
want to get.
    I mean, in Japan, many of their kids go to school year-
round, but they also have very high stress rates, very high 
teen suicide rates, and that is not something, I do not think, 
any of us want for our young people. So there is also that need 
for kids to have unstructured time and free time to be able to 
grow and develop personally.
    Mr. Kleiman. Personally, just from observation, I think 
this is an enormous differential disparity when you start 
talking about a high school junior versus the fourth grade in 
this area, and also, I think you will see some hard data 
collected in the near future. I mean, in our State, they have 
just mandated a 210-day school year for certain students. So 
stay tuned.
    Senator Biden. Coach.
    Mr. Ennis. Sir, thank you for the opportunity. I am going 
to be brief and just make a couple observations. The focus of 
your reform and hearing is on possibly what works, modeling 
things. We have heard first a good thing, which I laud, but I 
would like to make just a couple of observations.
    One thing, I have been in the public education system for 
29 years so I have some observations. One of the best things we 
have ever done is to have the SRO Program. It does a number of 
things. If nothing else, there are a lot of ties between youth 
and police. There are perceptions and stereotyping and to have 
people like Jeff, plainclothes, talking to them in normal ways 
about normal things--he comes to our ball games, he is there at 
our basketball games and our concerts and things--and to see 
that interaction, it has changed a lot of perceptions. I have 
kids now who I would call on the rough side who view a police 
officer very differently than they used to.
    So I would say that is one thing that has worked and should 
be, as I was glad to hear, you are even increasing those types 
of opportunities. That does work and I think that is a 
tremendous program. Of course, you need good people. We have 
been fortunate.
    You also, I think, with the superintendent sitting here, 
you need to hire, as you mentioned, that person with that 
golden touch. You have to have strong leadership. I have 
observed in different places that I have been where you have 
strong leadership, those who can sell your programs to the 
kids, things work. Where you cannot, it does not. That program 
might be identical, but it is that ability to have that strong 
leader and I think it is incumbent upon our boards of education 
to hire the type of people we need.
    At my school, we are fortunate to have great leadership and 
administration, except for Richard Farmer----
    [Laughter.]
    And several of our students are here, and I just wanted to 
have that said.
    Ms. Riley. They are laughing. [Laughter.]
    Mr. Ennis. But we are fortunate, so I can see how that 
really does work.
    A couple more observations. No program will work, in my 
opinion, unless you have involvement with the kids, and that is 
why I like your student watch. I would call it a community 
watch, and I know how that does to communities. To have 
children--if you do not have children involved in your 
programs, then it will never work.
    Second, I would like to just real quickly say something 
about what Dr. Riley said. When someone says school violence, I 
really do not think of Paducah and all these other places. I 
think of the little things. I think of the things you mentioned 
earlier, the bully, the intimidation factors. Those are much 
more important to me than the actually very small, as you 
pointed out in numbers, violence that we really do have. 
Everybody gets alarmed at that. That does not alarm me, and I 
am not making light of that. But it is the small things that 
lead to the big things.
    If you just look at what some of the motivation for some of 
these kids were that did the killing, being viewed as not being 
a part of things, being an outcast, the bully, the teasing. It 
is all those little things that are critical. And so you must 
focus on those things to address the things that later turn 
into major crises.
    I have always found that any program that does not involve 
the kids, but also schools that do not have good 
extracurricular activities, particularly something like 
football----[Laughter.]
    But the more kids you have involved, an involved kid, we 
can show you statistics, and Jeff can back me up on this, 
Richard McFarland can definitely back me up on this, kids 
involved in our programs have higher GPAs, grade point 
averages. We can prove that statistically. And they also, when 
you look at the number of infractions, it is way down because 
they have a stake in something. They take a stake.
    The last thing, those are my observations. I want to throw 
one question out for the Senator and the rest of the panel. 
This was not brought up, so I saved this.
    Senator Biden. I do not have to answer any of your 
questions. [Laughter.]
    Mr. Ennis. But you might want to. It seems to me that you 
will never, never have the kind of impact you really see in 
reducing school violence and the things we associate with that 
unless you impact those whom they emulate. These kids, I talk 
to them every day. I teach the high school-age kid, and when I 
listen to what they listen to, the music they listen to, when I 
hear the movies they go to see, when I hear the role models 
that they choose from sports, and they are not ones I would 
choose for them, I will just say that--in other words, if you 
do not impact the MTV generation and the people that they 
emulate, you will never have the kind of impact you want 
because they have a far greater impact than most of us do and 
they spend far greater time with those people, if you get my 
drift, listening to them, watching them, dressing like them, 
talking like them.
    If you do not address that in some way, no program, I 
think, will ever have the kinds of impacts that you need, and I 
do not hear that being addressed. We seem to really shy away 
from any type of thing that might smack of censorship, and yet 
I do not see any way around it. If you do not impact who they 
emulate, you will not have the kind, as I said, and I will 
close with that, and I do not know what is out there. Are 
people talking about this, because I know, as a teacher, that 
is what affects what I get in my classroom.
    Ms. Riley. In a recent survey that I saw, the No. 1 
influence on young people, and this was self-reporting, were 
peers, my friends, and No. 2, the media, including music, 
movies, TV shows, the violence that we see there. But which 
comes first? I mean, are we seeing this and the kids are doing 
it and then they are watching each other? But those two 
influences and how do we combat that and how do we convince 
young people that there is a difference between a hero and a 
celebrity, because I think we have gotten those very much 
confused.
    Mr. Ennis. Dr. Riley, do you understand what I am saying? 
If you watch video and the games they play, it is all violence. 
And when you have kids excited about a movie, it is usually a 
violent movie. If you do not address that, I mean, we get down 
to this mindset in this country that that is what is 
acceptable.
    Mr. Kleiman. I have to tell you that I agree with you, and 
I think it is a societal problem. It is obviously nationwide. I 
think what we do at the local level is we have people like you 
that they do look up to, and the more people like that we can 
provide the kids, you know, good people that will model those 
behaviors, there are a lot of kids that look up to those 
coaches, look up to those clubsponsors, and again, if you put 
really dynamite leadership positions at that level, I think that is the 
only way we have to combat it.
    Mr. Yeakey. And I must add that in the absence of changing 
or toward mandating what game makers and what music, you know, 
going to a censorship style, we have to try and develop good 
parenting skills so that our young people early on are not 
sitting in front of the tube watching for eight hours a day 
movies that emulate violence and playing video games that are 
extremely violent, and that is difficult because a lot of our 
parents do not take the time or have the time all the time to 
monitor everything their child is watching or seeing and we are 
going to have to address it more and more with the emergence of 
the Internet, kids' involvement on computers at early ages.
    My daughter is four years old and she already knows how to 
play games on the computer. Now, she plays Reader Rabbit games 
and does math games and I hope I can keep her doing that for a 
long, long time, but it scares me to think about what kids are 
able to access. And while the Internet and the information that 
is available is wonderful to that, it is also very dangerous if 
we do not help, as parents, monitor and guide our kids as to 
what they are looking at and making sure we are counseling them 
and saying, you know what you are seeing? That is not okay. 
What that person does, that is not all right, and then either 
choosing not to watch that, let them watch that, or making sure 
if they are going to watch it that we counsel them on what it 
is that they are watching.
    Ms. Connor. Just to piggyback on that, I think it is their 
level of sensitivity. We as adults, and I will tell you, I am 
in the second half of this decade, this millennium, over that 
wonderful number of 50, and my younger son is 17, and things 
that will bring tears to my eyes, the commentating that I will 
see on television or whatever, sometimes I will ask him to 
share with me and he just goes, ``So?'' because----
    Mr. Yeakey. They are desensitized to it.
    Ms. Connor. Yes, it is because they have seen so much, 
whether it is on this or on the screen or on television or hear 
so much that they are not picking up on what in our generation 
would bring us to our knees, thinking you do not want anyone to 
witness that or let alone to live through it, and they have 
seen so much that, you know----
    Mr. Yeakey. When ``Saving Private Ryan'' came out as a 
movie, I watched that movie and I was devastated by it. My 
grandfather was in World War II and I never walked away from a 
movie so emotionally broken after watching the initial scenes 
of D-Day and what those people--I was horrified. It scared me 
and it struck me. And I had kids in school talking about the 
fact that they had seen it and was it not awesome? It was 
great. I cannot believe it. Was that not incredible? Was that 
not cruel? None of those emotions struck me that way when I 
watched it.
    Ms. Connor. Totally different.
    Mr. Kleiman. And the danger would be with the Internet, 
even more in greater isolation in the future.
    Senator Biden. It is an interesting phenomenon, though. I 
do not disagree with anything anybody said. One thing you said, 
Mr. Kleiman, earlier, and that is, in my view, this is the 
greatest generation that we have ever had. An interesting 
little phenomena. I recently observed a great deal of 
statistical data about this generation.
    I happen to be on a parents' council for the university my 
daughter attends and they brought in all these statisticians 
and pollsters and, as many of you know, generations for 
purposes of statistically identifiable modes are listed in 8-
year increments. So the kids who are in their freshman year in 
college have more in common in terms of their value set with 
kids who are freshmen in high school than they do with people 
who are seniors with college. There is a break, and it is an 
interesting notion. Sophomores have more in common with someone 
who is a sophomore in high school than someone who is a senior 
in college.
    An interesting thing about this generation, in terms of 
their preferences and value reaches, they believe more in 
community service than any generation since the generation of 
the 1960s. Teen pregnancy is down in every single category in 
the United States of America in the last 7 years. Violence is 
down in every single category, by race, by economic strata, not 
merely because of police officers. Their desire for what they 
consider to be their optimal thing they want to do when they 
are older is not to be in the rat race like their parents and 
having to make a lot of money. They want less material things 
than their parents or than the generation--they are calling 
them the ``Y Generation,'' which they are going to resent as 
much as the ``X Generation'' resents that characterization.
    So, you know, there are a lot of bad things that are 
happening, but I will end this by saying that I think there are 
also a number of awfully remarkable trends. My dad has an 
expression. Every once in a while, I will get--my dad is 85 
years old and in good health, thank God, and every once in a 
while, I will get somewhat frustrated. I am working a lot now 
and I am, in fact, tomorrow meeting with the President on this 
issue. I am very involved in what they call national strategic 
doctrine and national missile defense and the ABM treaty and 
the whole question about nuclear weapons and our strategic 
doctrine, which is under review.
    And I will come home somewhat frustrated sometimes, and, 
quite frankly, worried about human nature's capacity to 
accidentally now annihilate one another. I mean, we are in much 
more danger of a nuclear explosion occurring today than we ever 
were at the height of the Cold War. And my father, my father, 
he will say to me, ``Joey, do not worry. America is so big, so 
strong, the American people are so resilient that nobody can 
screw things up bad enough in four years to fundamentally alter 
things.''
    The point being that it astounds me how resilient our 
children are. It astounds me how resilient this society is. It 
astounds me, the opportunities that we are about to have--that 
we are about to face, and they are opportunities that can 
literally revolutionize the way in which people's lives are 
led. We can close the digital divide in a way that inner-city 
black youth could be making $65,000 here instead of us 
importing 450,000 highly skilled workers from abroad because we 
do not have enough people to fill the jobs.
    We just increased in this community the H1-B visas to 
195,000, almost all people from India, and I am one who thinks 
that immigration has built this country. I am not for closing 
our borders. I am for opening our doors, which is not a popular 
position, I acknowledge. But the idea that if we were able to 
target our resources to provide for overthe next 6 years the 
skills, can you imagine what would happen if you had 200,000 inner-city 
Hispanic and black kids being able to take those jobs in Silicon Valley 
and making $75,000 to $80,000 a year? It would transform society--
transform society. This is not some pipe dream. This is stuff we have 
the ability to deal with.
    And I walk away from every day down there more--I mean, 
nothing to do with Democrat-Republican, this administration, 
the next administration. It is amazing how the message is 
subliminally getting across to people, how it is always about 
four years after the fact, but how it is getting across.
    So I do not walk away from this hearing or my experiences 
looking at this generation as a troubled generation. I look at 
this generation, and, quite frankly, their parents--parents are 
beginning to make different choices. Thirty-year-old parents 
are making different choices than the 40-year-old parents made 
when they were 30. Not many parents are talking like my 
generation did, the Baby Boomers. My generation talked about 
quality time with our children. Malarkey. Malarkey. Not one 
single significant thing my four children ever engaged in was 
done at a time when we said, ``Let us have some quality time 
now, son.'' They were always at times that were unexpected. 
They were always at times when we were available.
    And it is interesting to watch. It is interesting to watch 
this generation that is 28, 29, 30, 31, 33, 35, who are 
figuring out, you cannot have it all. You cannot both work full 
time. You cannot both work full time and both say that your 
children are going to have the same kind of considerations you 
thought they had.
    So generations are learning. I do not want to be Pollyanna-
ish about this, but I really think there are a lot of good 
things that we could make a whole heck of a lot better if 
government were just--all of us, State, local, everybody--if we 
were just a little bit smarter in what we do.
    Your testimony today is very helpful in getting us to the 
point of deciding that it is not rocket science. We are not 
talking about rocket science here. The things that matter are 
the fact you have some kid in a stairwell or near a stairwell 
with a walkie-talkie that can call into the office. This is not 
rocket science. This is not any great, great fundamental 
breakthrough.
    The idea we have a school resource officer--as you pointed 
out, some States are deciding, hey, this is a good deal. Maybe 
we should have more of these school resource officers. And the 
Federal Government, if I have anything to do with it, will also 
add more school resource officers, not in Federal control, if 
you notice. I want to make the point, none of this--you have 
never heard from a Federal officer. You have never heard from 
me or anyone else about how you are using this officer, and 
that is how it should be. That is how it should be. So there 
are ways in which we can collectively make things better.
    I am going to have another hearing, and the Senator raised 
the question of it is a shame we are not able to hear from some 
of the students today. I am going to have another hearing where 
I am just going to have students and I am going to invite to 
participate in this process, as well, students and teachers and 
administrators, and we are going to break them into panels, 
have administrators who wish to--not a mandatory deal, because, 
obviously, I cannot mandate anything--and teachers, as well, 
who will come forward, and kids who will come forward and tell 
us what they think.
    I will be having another one. The question is whether or 
not, with all the activity that is going on at the end of the 
school year, it is appropriate to have it before the year ends, 
which I think it probably is not, or I have it in the end of 
September, after people are back into school and it is 
acclimated a little more. But this is not something we are 
going to leave on the shelf here.
    Again, I cannot thank you all enough. I have a series of--I 
am not going to make a lot of work for you, but I was pleased--
I did not anticipate any of my colleagues would be here. I am 
delighted to have them here, obviously. That is why I asked 
them up here, but this is a busman's holiday for them. But I 
have a series of questions that I did not take the time to ask 
that are more specific about race, and statistics relating to 
expulsions relating to race, questions relating to degree of 
the trouble in school, is it generated from inside or outside 
of school, how much of it relates to the kid who has been 
expelled coming back to school or the kid who is a dropout 
coming into the school, what methodologies have been used to 
deal with that. You mentioned one, shorts, for example, no 
longer being permissible in Dade County in your school, so 
obviously you do not have kids walking around with long pants 
who are out of school, et cetera.
    There are a number of questions, no more than two for each 
of you, that I did not get to ask. I would like to ask you at 
your leisure to submit for the record, if you would.
    [The questions referred to were not available at press 
time.]
    Senator Biden. And again, I would like to thank my 
colleagues, thank the school district for participating, and it 
is not usually what you should do, but thank the press for 
paying attention to this issue. These kids are good kids. They 
are our kids. They are the kite strings on which our whole 
national ambition is lifted aloft. I mean, it is not somebody 
else's problem, not somebody else's kid. They are all our kids.
    I have great, great, great, great hope for them. I have 
great expectations. I think we have passed through a valley in 
terms of our national psyche here that we are about to burst 
out in ways that we have not in a long time. I made a comment 
like that, and actually, I was at a dinner party with a couple 
guys you know, Bruce, our age, who played ball when we were 
playing, who after dinner, I heard them talking about today. It 
reminded me of ``The Music Man,'' you know, pole with a capital 
``P''. I mean, all these kids are back thinking, where the hell 
am I?
    I mean, I look out there and I see they think I am being 
too optimistic. I see phenomenal, phenomenal opportunities not 
to leave people behind, teachers thinking this, administrators 
thinking it is changing. It is a little bit like, and I will 
end with this, the hardest part of dealing with the crime bill, 
and I look at the officers out there, everybody thinks 
community policing is great now. Nobody thought it was such a 
good idea eight years ago when I was pushing it. Why? Community 
policing meant a cop got out of their car. It means there were 
not two in a car. I do not want to get out of the car in 
Dobbinsville, over in the east side of Wilmington or wherever 
and walk the beat. I do not want to get out of that car. I 
would rather be in a car.
    But when we figured out and told cops, we will give you all 
the resources you need to engage in community policing, they 
said okay. The reason why the crime bill worked is not because 
we added 100,000 cops, because it exponentially changed the 
requirements of the 580,000 cops who are out there. In order to 
get a single Biden cop, you had to change your whole department 
to community policing, a fundamental change in the way in which 
we policed in America. So now we have got 650,000 community 
police, not 100,000 new cops.
    I see the same kind of thing happening with teachers. I see 
the same kind of thing happening as you all wrestle at the 
State level, where the responsibility belongs and you know more 
than we know about how the education system should work.
    And again, I may be overly optimistic. I once said when 
someone said that to me, I said, well, it is an occupational 
requirement. Optimism is an occupational requirement. But I do 
not think it is falsely placed. This data, and I realize there 
are three kinds of lies, lies, damn lies, and statistics, but 
the data, the data is encouraging. We have broken the back of 
the exponential spiral here. The data is encouraging. We are 
learning. We are starting to move in the right direction. 
Parenting, school administrators, teachers, we have a long way 
to go, but we are on the right side of the curve now, in my 
view.
    The reason for this hearing is not so much how bad things 
are, it is that they are getting better and if we are smart, if 
we are smart, we will adopt the pieces of this and there will 
be more to come in this. This is not the end of my attempt to 
bring back to my State and other States, but in my State in 
particular, what works and does not work. What works in here 
may not work in your school district. It may not work in this 
high school, Bruce. It may work in Woodbridge. It may or may 
not. But there are alternatives that are working in other 
places that give people ideas. That is sort of--I view the 
Federal role in large part being a clearinghouse of these 
ideas. We are able to get the best people in the country to 
come and show up, and hopefully we can collectively learn a 
little bit from them.
    You have been great witnesses. I truly appreciate your 
willingness to be here. And again, I doubt whether there are 
many States where you would all come and testify where the key 
legislators--these are not just key legislators in this 
district, these are among the key legislators in the State 
Senate and the State House. So, hopefully, we can continue the 
partnership. I have learned a little bit today from them. 
Hopefully they will learn a little bit about what is available 
from us, and maybe we can end up with more school resource 
officers and maybe we can end up with continuing to fund some 
of what we have done.
    That is the last thing I will say. Bruce, I am not going to 
take the time of the committee now, but there are three 
specific initiatives that deal with the subject you raised 
about the media, about the press, about the culture that we are 
operating in, and I realize that teachers, like Senators, like 
lawyers, like lawyers, could all be better, but I think--my 
Grandpa Finnegan used to have an expression. I would say, 
``Grandpa, can I do such and such?'' and he would look at me 
and say, ``Joey, I do not think the horse can carry that 
sleigh.'' I do not think the horse can carry that sleigh, 
meaning the load is bigger than the horse is designed to pull.
    I think we ask teachers to do an awful lot, an awful lot. 
Some of them, out of frustration, decide they are not going to 
do any of it. But a teacher today is met with a set of 
requirements to be able to teach that exceed anything, 
anything, anything you had when you started teaching. And so I 
hope that whatever we contemplate for teachers or 
administrators, we also contemplate the compensation that 
relates to what they should be receiving when they, in fact, 
take on this additional responsibility.
    So I thank you all. I thank my colleagues for being with 
me. I thank all of you for being here. In all probability, and 
I say to the students, I want you thinking about what you think 
I should be doing. I mean this sincerely. This is not 
hyperbole. I sincerely mean it. You can call the Wilmington 
office. I am actually going to leave one of my staff members 
behind. Who am I leaving behind? I am leaving you behind. Stand 
up there. Let them see this guy. He is one of the experts on my 
staff on the Judiciary Committee and I am going to leave him 
behind.
    Any ideas you have about how you think we can get students 
to meaningfully come and tell us what is on their mind about 
safety in schools, it would be a helpful thing. We will 
probably do it, as I think out loud, probably the end of 
September, the beginning of October, and I invite my colleagues 
to come back with me then, as well.
    But thank you all very, very much for your time, and 
officers all, thanks for being here. You are the best. Thanks a 
million.
    [Whereupon, at 12:22 p.m., the committee was adjourned.]

                                <all>

</pre></body></html>
